<html>
<title> - H.R. 3561 and H.R. 4638</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                        H.R. 3561 and H.R. 4638
=======================================================================

                          LEGISLATIVE HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              May 22, 2002

                               __________

                           Serial No. 107-119

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov











                       U. S. GOVERNMENT PRINTING OFFICE
79-751                          WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                       Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

                   KEN CALVERT, California, Chairman
            ADAM SMITH, Washington, Ranking Democrat Member

Richard W. Pombo, California         George Miller, California
George Radanovich, California        Peter A. DeFazio, Oregon
Greg Walden, Oregon,                 Calvin M. Dooley, California
  Vice Chairman                      Grace F. Napolitano, California
Michael K. Simpson, Idaho            Hilda L. Solis, California
J.D. Hayworth, Arizona               Brad Carson, Oklahoma
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona






                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 22, 2002.....................................     1

Statement of Members:
    Calvert, Hon. Ken, a Representative in Congress from the 
      State of California........................................     1
        Prepared statement on H.R. 3561 and H.R. 4638............     2
    Linder, Hon. John, a Representative in Congress from the 
      State of Georgia...........................................     3
        Prepared statement on H.R. 3561..........................     5
    Thune, Hon. John R., a Representative in Congress from the 
      State of South Dakota......................................     8
        Prepared statement on H.R. 4638..........................     8

Statement of Witnesses:
    Cody, Betsy A., Section Head, Natural Resources and Earth 
      Sciences, and Specialist in Natural Resources Policy, 
      Congressional Research Service, Library of Congress........    21
        Prepared statement on H.R. 3561..........................    23
    Donnelly, Thomas F., Executive Vice President, National Water 
      Resources Association......................................    34
        Prepared statement on H.R. 3561..........................    35
    Keys, John W., Commissioner, Bureau of Reclamation, U.S. 
      Department of the Interior.................................    11
        Prepared statement on H.R. 3561..........................    12
        Prepared statement on H.R. 4638..........................    13
    Kurle, Mike, Manager, West River/Lyman-Jones Rural Water 
      Systems, Inc., South Dakota, Oral statement on H.R. 4638...    48
    Lynch, Robert S., Appointed Member, Water Rights Task Force, 
      Phoenix, Arizona...........................................    38
        Prepared statement on H.R. 3561..........................    40
    Means, Frank, Chairman, Economic and Business Development 
      Committee, Tribal Council of the Oglala Sioux Tribe, Oral 
      statement on H.R. 4638.....................................    49
    Vaux, Henry J., Jr., Associate Vice President, University of 
      California, Division of Agriculture and Natural Resources..    17
        Prepared statement on H.R. 3561..........................    19

Additional materials supplied:
    Brophy, Michael J., Chairman, Western States Water Council, 
      Statement submitted for the record on H.R. 3561............    51
    Steele, John, President, Oglala Sioux Tribe, Pine Ridge 
      Indian Reservation, Statement submitted for the record on 
      H.R. 4638..................................................    60


LEGISLATIVE HEARING ON H.R. 3561, TO ESTABLISH THE TWENTY-FIRST CENTURY 
 WATER POLICY COMMISSION; AND H.R. 4638, TO REAUTHORIZE THE MNI WICONI 
                      RURAL WATER SUPPLY PROJECT.

                              ----------                              


                        Wednesday, May 22, 2002

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 2 p.m., in room 
1334, Longworth House Office Building, Hon. Ken Calvert 
[Chairman of the Subcommittee] presiding.

  STATEMENT OF HON. KEN CALVERT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Calvert. Hearing will come to order. The Subcommittee 
on Water and Power will come to order. The Committee is meeting 
today to hear testimony on two bills, H.R. 3561, to establish 
the Twenty-First Century Water Policy Commission; and H.R. 
4638, to reauthorize the Mni Wiconi Rural Water Supply Project.
    Mr. Calvert. Under rule 4(b) of the Committee rules, any 
oral opening statements at hearings are limited to the Chairman 
and the Ranking Minority Member. Since he is not here, I will 
just take that for the record.
    Mr. Calvert. If other members have statements, they can be 
included in the hearing record under unanimous consent.
    Mr. Calvert. Today we conduct the hearing on two seemingly 
unrelated issues. They are different in scale and focus, but 
are similar because they both look at the way we manage our 
limited water resources to ensure an adequate supply of safe 
drinking water. The first bill we look at authorizes a 
commission to broadly examine our water resources in order to 
establish a national water resources policy for our future.
    There are many Federal, State and local agencies that have 
responsibility for managing water resources. While there is 
some overlap of agency responsibility, some argue that there is 
little coordination among them. At the same time, competing 
demands for water among various agriculture, urban, 
recreational and environmental interests have led to many 
challenges over the last few decades. H.R. 3561 attempts to 
reduce those challenges by establishing the Twenty-First 
Century Water Policy Commission in order to study all aspects 
of water management on the Federal, State, local and private 
levels. The Commission would also develop recommendations for a 
comprehensive water policy to ensure an adequate water supply 
of fresh water for U.S. Citizens over the next 50 years.
    The second bill looks to complete a water project to serve 
a vast area of the Midwest that currently lacks drinkable 
water. While most of us take running water in our homes for 
granted, there are many areas in the rural portions of the 
United States who do not even have access to indoor plumbing or 
water supplies that meet safe drinking water standards. H.R. 
4638 reauthorizes the Mni Wiconi Rural Water Supply Project by 
extending the date for the completion of the project to 2008 
and increasing the authorization ceiling by $58.8 million. This 
proposed legislation would provide authority for the completion 
of this project, and I look forward to hearing from our 
witnesses.
    And before I get into that, I know that Mr. Linder has 
shown great interest in this country about the inadequate water 
supply that we do have and the coming crisis that we have in 
many areas of the country. Not just California and the West 
suffers from water difficulties. We were just in Texas a few 
weeks ago on the Rio Grande where we have an ongoing dispute 
right now, which hopefully is getting positively resolved. We 
have a meeting this afternoon on the Rio Grande in south Texas, 
and certainly issues in Mr. Linder's part of the country, in 
Florida, Georgia and other parts of the country, where again 
water adequacy is being challenged.
    So I compliment the gentleman for his hard work in this, 
and I think we move into this, and obviously there are some 
concerns about--before we get to your opening statement about 
the so-called Federalization of water rights. And I know that 
is not your intent, and you may want to talk about that. We 
certainly recognize State water rights, and we want to protect 
them, but at the same time have a better coordination of water 
and planning throughout this country.
    I think it would be great, by the way, since no one here is 
to speak--hi, how are you--is that we should name this the 
Linder Commission. I haven't asked John about this, but I think 
that would be appropriate since you have shown such great 
interest in this.
    [The prepared statement of Mr. Calvert follows:]

Statement of The Honorable Ken Calvert, Chairman, Subcommittee on Water 
                               and Power

    Today we will conduct a hearing on two seemingly unrelated issues 
that are different in scale and focus, but are similar because they 
both look at the way we manage our limited water resources to ensure an 
adequate supply of safe drinking water. The first bill we will look at 
authorizes a Commission to broadly examine our water resources in order 
to establish a national water resources policy for our future.
    There are many Federal, state and local agencies that have 
responsibilities for managing water resources. While there is some 
overlap of agency responsibilities, some argue that there is little 
coordination among them. At the same time competing demands for water 
among various agricultural, urban, recreational and environmental 
interests have led to many challenges over the last few decades.
    H.R. 3561, attempts to reduce those challenges by establishing the 
``21st Century Water Policy Commission'' in order to study all aspects 
of water management on the Federal, state, local, and private levels. 
The Commission would also develop recommendations for a comprehensive 
water policy to ensure an adequate supply of fresh water for U.S. 
citizens over the next 50 years.
    The second bill looks to complete a water project to serve a vast 
area in the Midwest that currently lacks drinkable water. While most of 
us take running water in our homes for granted, there are many areas in 
rural portions of the United States that do not even have access to 
indoor plumbing or water supplies that meet safe drinking water 
standards.
    H.R. 4638, reauthorizes the Mni Wiconi Rural Water Supply Project 
by extending the date for the completion of the project to 2008, and 
increasing the Authorization ceiling by $58.8 million. This proposed 
legislation will provide the authority for the completion of this 
project.
    I look forward to hearing from the witnesses.
                                 ______
                                 
    Mr. Calvert. With that I would be more than happy to 
recognize the gentleman for his statement.

  STATEMENT OF HON. JOHN LINDER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF GEORGIA

    Mr. Linder. Thank you, Mr. Chairman. I want to thank you 
and the members of this Subcommittee on Water and Power for 
holding this hearing on H.R. 3561, the Twenty-First Century 
Water Policy Commission Establishment Act. I appreciate your 
giving me the opportunity to present my ideas and objectives 
for this bill as well as giving me the opportunity to receive 
constructive feedback on this important legislation.
    During the past few months, I have read story after story 
in our Nation's papers about fresh water crises. Nearly half of 
the United States is currently experiencing drought conditions. 
Rivers and wells are drying up, aquifers are challenged by 
saltwater intrusion, and fish, wildlife and crops are 
threatened. These droughts are temporary problems, but their 
impacts signal the state of things to come as population growth 
and development challenge our Nation's fresh water resources in 
the 21st century. Our water resources will be utilized to their 
fullest capacity in the coming decades, and current water 
supplies will prove inadequate. It is important that we develop 
a strategy to meet future water demand now before the full-
blown water shortage hits.
    Over the past couple of decades I have given much thought 
to the impending shortage of fresh water in the Nation. As we 
enter the 21st century, I am convinced we must act now to 
prepare for the coming water crisis. I have introduced H.R. 
3561 to take the first small step toward meeting 21st century 
water challenges. I realize that getting fully prepared for 
future water challenges will take years and possibly decades. 
We need to begin this process today by taking the small step of 
gathering together water experts and policymakers to initiate a 
dialog on how to address this problem.
    My Twenty-First Century Water Policy Commission bill would 
create a commission to evaluate future water demand and supply, 
to consider innovative water research and technologies, and to 
recommend possible solutions to future water shortages. The 
last commission to consider water resources with such a 
comprehensive approach completed its work in 1973. That 
commission contributed much to our Nation's water policies. The 
United States and its resources, however, have changed 
dramatically over the past three decades. It is certainly time 
to reassess America's water.
    H.R. 3561 is designed to bring our Nation's premier water 
experts and managers together to the discussion table to share 
their ideas for the future. According to Harvard Professor 
Peter Rogers, in the early 1990's there were 90,000 Federal 
employees working to solve water problems, with three times as 
many individuals working on water at the State and local level. 
Add to that the 50,000 private sector employees also working on 
water issues, and you can begin to develop a sense for how 
unwieldy this issue has become. Unfortunately these hundreds of 
thousands of water experts rarely communicate among themselves 
or coordinate their efforts. As we work to plan and prepare for 
future demands placed on our fresh water resources, it will be 
critical that we share information, coordinate efforts and 
reduce duplication and conflict among those agencies.
    I believe that the first step toward meeting these goals is 
getting everyone together at the discussion table. I understand 
that we could spend years arguing over the appropriate size and 
shape of the table even before we begin the debate of who 
deserves a seat at the table, but remember that the clock is 
ticking. The longer it takes us to begin to make preparations 
for the future, the less prepared we will be when it comes. And 
it is coming.
    In John Steinbeck's novel East of Eden, the narrator 
observes, ``And it never failed that during the dry years 
people forget about the rich years, and during the wet years 
they lost all memory of the dry years. It was always that 
way.'' I have been told over and over again that the United 
States only reevaluates its water policies when a crisis hits. 
I know that my efforts to begin preparations for the future 
will be met with resistance by many who fear change, but 
resistance to planning for future water shortages is a recipe 
for disaster. One day you may turn your tap and discover that 
no water emerges. We must begin now to advance the science and 
knowledge that will be necessary to deal with 21st century 
water challenges.
    I in no way believe the Federal Government's authority over 
water should be increased at the States' expense. I believe 
water is a local issue. I respect the States' traditional 
primacy over water management and allocation. However, the 
Federal Government does have an obligation to serve as a 
resource for the States by supporting research and providing a 
forum through which research may be shared by helping to 
finance necessary infrastructure construction and improvement, 
and by reducing red tape and better coordinating Federal water 
agencies and programs.
    H.R. 3561 was drafted to serve as a basic model, which I 
hope to improve upon with your suggestions. Mr. Chairman, 
members of the Subcommittee, I come before you today to ask for 
your input on how can we best shape this commission. This is 
the first step toward solving our Nation's impending water 
problems. I hope you will support my objective of ensuring an 
adequate and dependable supply of fresh water for all Americans 
throughout the 21st century, and I hope you will share your 
insights on the best approach to this challenge so we may avoid 
the pitfalls of past commissions.
    We simply cannot afford to maintain the status quo with 
regard to our Nation's fresh water resources. If we fail to 
prepare for impending water shortages, we may be faced with a 
crisis of astronomical proportions in the coming decades. 
Providing all Americans with fresh water is a matter of life 
and death for the future of the United States. The time is now. 
Thank you, Mr. Chairman.
    Mr. Calvert. I thank the gentleman.
    [The prepared statement of Mr. Linder follows:]

 Statement of The Honorable John Linder, a Representative in Congress 
                       from the State of Georgia

    I wish to thank Chairman Calvert, Ranking Member Smith, and the 
other members of the Subcommittee on Water and Power for holding 
today's hearing on H.R. 3561, the 21st Century Water Policy Commission 
Establishment Act.'' I appreciate your giving me the opportunity to 
present my ideas and objectives for this bill, as well as giving me the 
opportunity to receive constructive feedback on this important 
legislation.
    During the past few months, I have read story after story in our 
nation's newspapers about fresh water crises. Nearly half of the United 
States is currently experiencing drought conditions. Rivers and wells 
are drying up, aquifers are challenged by saltwater intrusion, and 
fish, wildlife, and crops are threatened. While these droughts are 
temporary problems, their impacts signal the state of things to come as 
population growth and development challenge our nation's fresh water 
resources in the 21st century. Our water resources will be utilized to 
their fullest capacity in the coming decades, and current water 
supplies will prove inadequate. It is important that we develop a 
strategy to meet future water demand now, before the full-blown water 
shortage hits.
    Over the past two decades, I have given much thought to the 
impending shortage of fresh water in our nation. As we enter the 21st 
century, I am convinced that we must act now to prepare for the coming 
water crisis. I have introduced H.R. 3561 to take the first small step 
toward meeting 21st century water challenges. I realize that getting 
fully prepared for future water challenges will take years, possibly 
decades. We need to begin this process today by taking the small step 
of gathering together water experts and policy makers to initiate a 
dialogue on how to address this problem.
    My 21st Century Water Policy Commission bill would create a 
commission to evaluate future water demand and supply, to consider 
innovative water research and technologies, and to recommend possible 
solutions to future water shortages. The last commission to consider 
water resources with such a comprehensive approach completed its work 
in 1973. That commission contributed much to our nation's water 
policies. The United States and its resources, however, have changed 
dramatically over the past three decades. It is certainly time to 
reassess America's water.
    H.R. 3561 is designed to bring our nation's premier water experts 
and managers together to the discussion table to share their ideas for 
the future. According to Harvard Professor Peter Rogers, in the early 
1990s there were 90,000 Federal employees working to solve water 
problems, with three times as many individuals working on water at the 
state and local level. Add to that the 50,000 private-sector employees 
also working on water issues, and you can begin to develop a sense for 
how unwieldy this issue has become. Unfortunately, these hundreds of 
thousands of water experts rarely communicate among themselves or 
coordinate their efforts. As we work to plan and prepare for future 
demands placed on our fresh water resources, it will be critical that 
we share information, coordinate efforts, and reduce duplication and 
conflict among those agencies. I believe the first step toward meeting 
these goals is getting everyone together at the discussion table.
    I understand that we could spend years arguing over the appropriate 
size and shape of the table, even before we begin the debate of who 
deserves a seat at that table. But remember that the clock is ticking. 
The longer it takes us to begin to make preparations for the future, 
the less prepared we will be when crisis comes--and it is coming.
    In John Steinbeck's novel, East of Eden, the narrator observes, 
``And it never failed that during the dry years the people forgot about 
the rich years, and during the wet years they lost all memory of the 
dry years. It was always that way.'' I have been told over and over 
again that the United States only reevaluates its water policies when a 
crisis hits. I know that my efforts to begin preparations for the 
future will be met with resistance by many who fear change. But 
resistance to planning for future water shortages is a recipe for 
disaster. One day, you may turn your tap and discover that no water 
emerges.
    We must begin now to advance the science and knowledge that will be 
necessary to deal with 21st century water challenges. I in no way 
believe the Federal Government's authority over water should be 
increased at the states' expense. I respect the states' traditional 
primacy over water management and allocation. However, the Federal 
Government does have an obligation to serve as a resource for the 
states, by supporting research and providing a forum through which 
research may be shared, by helping to finance necessary infrastructure 
construction and improvement, and by reducing red tape and better 
coordinating Federal water agencies and programs.
    H.R. 3561 was drafted to serve as a basic model, which I hope to 
improve upon with your suggestions. Mr. Chairman, members of the 
Subcommittee, I come before you today to ask for your input on how we 
can best shape this commission--this first step toward solving our 
nation's impending water problems. I hope that you will support my 
objective of ensuring an adequate and dependable supply of fresh water 
for all Americans throughout the 21st century, and I hope you will 
share your insights on the best approach to this challenge so we may 
avoid the pitfalls of past commissions.
    We simply cannot afford to maintain the status quo with regard to 
our nation's fresh water resources. If we fail to prepare for impending 
water shortages, we may be faced with a crisis of astronomical 
proportions in the coming decades. Providing all Americans with fresh 
water is a matter of life and death for the future of the United 
States. The time for action is now.
                                 ______
                                 
                  Meeting America's Fresh Water Needs
                       representative john linder
    Many states across the nation currently face water crises. Some of 
the most severe droughts in recorded history have struck the East Coast 
and some western states, leaving water levels intolerably low in lakes 
and drying up rivers. Furthermore, overzealous groundwater pumping from 
fresh water aquifers across the nation is leaving aquifers dry or 
threatened by saltwater intrusion. Meanwhile, projected population 
growth for the United States indicates that water demand will continue 
to increase in coming years. It is critical that states across the 
nation find ways to ``create'' more fresh water to meet growing needs.
    I have introduced a bill in the U.S. House of Representatives to 
help all states to prepare for 21st century demands on our nation's 
finite water resources. My bill, H.R. 3561, would create a commission 
charged with researching and recommending to Congress a comprehensive 
water policy to meet 21st century water needs. The ``21st Century Water 
Policy Commission'' would include representatives of Federal, state, 
and local water management agencies, as well as private sector and 
environmental organizations that deal with water problems. This group 
would be responsible for recommending measures to ensure an adequate 
supply of fresh water for all Americans over the next 50 years.
    I believe the Federal Government can help states to prepare for 
pending water crises by funding research into new technologies, such as 
aquifer recharge, desalination, efficient irrigation techniques, 
wastewater reuse, and wetlands creation. Further, the Federal 
Government can provide a forum through which water research can be 
transmitted from one state to another. As such, the 21st Century Water 
Policy Commission would be charged with evaluating all available 
technologies for increasing water supplies efficiently, while 
safeguarding the environment, in order to promote research into new 
technologies.
    In addition, if promising projects or technologies are presented, 
the Federal Government can provide the initial funding needed for 
communities to construct necessary facilities. Another goal of the 21st 
Century Water Policy Commission would be to evaluate financing options, 
such as user-fees, for such public works projects.
    Finally, the Federal Government can help communities to expand 
their water resources by reducing red tape and better coordinating 
Federal water agencies and programs. Currently, local officials 
desiring to create new water programs face Federal bureaucratic 
challenges, Federal regulatory boundaries, and red tape at every turn. 
The 21st Century Water Policy Commission would be charged with 
developing recommendations for eliminating duplication and conflict 
among governmental agencies.
    Through all of these responsibilities, H.R. 3561 takes the first 
step toward helping all Americans to face future water emergencies 
proactively. States across the nation will meet with water crises in 
the coming years, and they will all have to find ways to use water more 
efficiently, capture more water, and reuse water multiple times before 
it flows out to sea. My 21st Century Water Policy Commission bill 
offers a ray of hope for all states challenged by their finite water 
resources.
                                 ______
                                 
    Mr. Calvert. Little bit of business to put away, and I 
would like to ask the gentleman from Georgia a couple of 
questions. First, Mr. Thune will have an opening statement 
shortly, and after that statement I would like to ask unanimous 
consent that Congressman Linder and Congressman Thune be 
permitted to sit on the dais following their statements for as 
long as they wish to participate with the witnesses that we 
will be bringing forward.
    Hearing none, so ordered.
    One quick question, and if anyone else would like to ask a 
question.
    Mr. Linder, first I would like to compliment you on your 
opening statement. Vision is an important thing, though we tend 
to forget about it around here. Sometimes we get involved in 
the short-term crises that we have in our districts and in our 
States, and certainly momentary problems we have in this 
country. But water is something that we are seeing less of and 
more problems arising because of that limited commodity. And I 
certainly think that--recognizing, as you have in your 
statement--that State rights are extremely important, and we 
have no intention of violating that, and working with agencies 
both on the Federal side and the State side and local agencies 
to come up with a comprehensive policy on how we are going to 
meet the demands of the 21st century and beyond.
    So I guess you could reiterate for the record that, again, 
you have no intention of violating State water rights.
    Mr. Linder. This is uniquely a State and local issue, but 
the Federal Government can provide some resources and then, 
frankly, some money down the road if there are large regional 
projects that need to be funded and paid for, just like we did 
the Eisenhower highway system with user fees collected through 
the Federal excise taxes on gasoline. And I would pull this 
bill off the table tomorrow if it were somehow drawn into a 
Federal controllable water system.
    I tell people that inter-basin transfers are the kinds of 
things over which wars are fought. We want to find more water 
for every basin and leave the control of that basin to the 
local community, but we need more storage; above-ground storage 
perhaps, below-ground storage perhaps, aquifers perhaps. 
Georgia's most valuable natural resource is an aquifer that had 
salt water creeping into it from the Gulf. We need to recharge 
those aquifers. All kinds of communities are trying different 
kinds of things, and we need to bring that technology and 
science together at the same table so we can compare what works 
and what doesn't work. We may need to provide some 
infrastructure support for the large urban areas that are 
losing upwards of 20 to 25 percent of their water through leaks 
in the current old infrastructure.
    I don't know what the answer is going to be. I have a lot 
of questions and very few answers. So my hope is we can get 
people around the same discussion table and start talking about 
the possibilities of using the knowledge that some people have 
developed in other parts of the country.
    Mr. Calvert. I compliment the gentleman and look forward to 
making sure that we put together the Linder Commission in the 
way that people will be looking forward to the way that it is 
fashioned.
    Mr. Thune, you may begin your statement.

 STATEMENT OF HON. JOHN R. THUNE, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF SOUTH DAKOTA

    Mr. Thune. Thank you, Mr. Chairman, and I want to--and 
members of the Committee. I want to thank you for holding this 
hearing to review H.R. 4638, which is a bill that will extend 
the authorization of the Mni Wiconi Rural Water Supply Project. 
I introduced this bill on May 1 of this year because it is 
critical to finishing the project, which is over 50 percent 
complete. H.R. 4638 will increase the authorization ceiling of 
the project by $58.8 million and extend the sunset date of the 
project from 2003 to 2008. This project will bring healthy, 
safe drinking water and the potential for greater prosperity to 
over 50,000 South Dakotans, most of whom live in some of the 
most economically depressed communities in America.
    The Mni Wiconi Rural Water Supply Project is made up of 
four separate rural water supply systems: Oglala, Rosebud, 
Lower Brule and West River/Lyman-Jones. Each of the four 
project sponsors are represented in the audience and at the 
witness table today. Their attendance today illustrates the 
unified support this project has from the Native American and 
nontribal communities throughout the Mni Wiconi project area.
    The three tribal sponsors have chosen Frank Means to 
testify on their behalf. Frank is a councilman for the Oglala 
Sioux Tribe and chairs the tribe's economic and business 
development committee. Mike Kurle will be testifying on behalf 
of the nontribal sponsor. Mike is manager of the West River/
Lyman-Jones rural water system. I would also like to recognize 
Jim McCauley, director of the Lower Brule Rural Water Supply 
System; Cyatt Hut, director of the Rosebud's Sioux Rural Water 
System; Paul Little, Oglala Sioux Tribe; and Mike Watson the 
lead project engineer. Blaine Brewer, who is acting director of 
the Oglala Sioux Rural Water Supply System was unable to make 
it today due to a family emergency.
    Mr. Chairman and members of the Committee, Mni Wiconi 
translates into ``water is life.'' the poor quality of the 
drinking water in many communities throughout the project area 
has been the cause of waterborne illnesses for some time. The 
need for this project is simple, healthy, safe water.
    Mr. Chairman, I appreciate your willingness to consider 
H.R. 4638 and the opportunity today to introduce to you this 
critically important project in South Dakota and the people 
that keep it moving forward every day. Thank you.
    Mr. Calvert. I thank the gentleman.
    [The prepared statement of Mr. Thune follows:]

Statement of The Honorable John R. Thune, a Representative in Congress 
                     from the State of South Dakota

    Mr. Chairman, I want to thank you for holding this hearing to 
review H.R. 4638, a bill that will extend authorization of the Mni 
Wiconi Rural Water Supply Project.
    I introduced this bill on May 1, 2002, because it is critical to 
finishing the project, which is over 50 percent complete. H.R. 4638 
will increase the authorization ceiling of the project by $58.8 million 
and extend the sunset date of the project from 2003 to 2008.
    This project will bring healthy, safe drinking water and the 
potential for greater prosperity to over 50,000 South Dakotans, many of 
whom live in some of the most economically depressed communities in 
America.
    The Mni Wiconi Rural Water Supply Project is made up of four 
separate rural water supply systems: Oglala, Rosebud, Lower Brule, and 
West River/Lyman-Jones.
    Each of the four project sponsors are represented in the audience 
and at the witness table today. Their attendance today illustrates the 
unified support this project has from the Native American and non-
tribal communities throughout the Mni Wiconi project area.
    The three tribal sponsors have chosen Frank Means to testify on 
their behalf. Frank is a Councilman for the Oglala Sioux Tribe and 
chairs the tribe's Economic and Business Development Committee.
    Mike Kurle will be testifying on behalf of the non-tribal sponsor. 
Mike is manager of the West River/Lyman-Jones Rural Water System.
    I would also like to recognize Jim McCauley, Director of the Lower 
Brule Rural Water Supply System; Syed Huq, Director of the Rosebud 
Sioux Rural Water System; Paul Little, Oglala Sioux Tribe; and Mike 
Watson, the lead project engineer.
    Duane Brewer, Acting Director of the Oglala Sioux Rural Water 
Supply System, was unable to make it today due to a family emergency.
    Mr. Chairman, Mni Wiconi translates into ``Water is Life.'' The 
poor quality of the drinking water in many communities throughout the 
project area has been the cause of water borne illnesses for some time. 
The need for this project is simple--healthy, safe water.
    Mr. Chairman, I appreciate your willingness to consider H.R. 4638 
and the opportunity to introduce you to this critically important 
project in South Dakota and the people that keep it moving forward 
every day.
                                 ______
                                 
    Mr. Calvert. We ask you both to join us here on the dais, 
and ask the Members here if they have any questions.
    Ms. Solis. Thank you, Mr. Chairman. Thank you for having 
this hearing and also the timeliness of the presentation by 
Congressman Linder.
    Thank you for coming and expressing your concerns on 
providing a better management of our water supply. I am very 
concerned about this issue as well as and been working with our 
chairman on the CALFED project in California, and because of 
the drought and other issues, storage, that we are faced with, 
obviously growing populations, that is somewhat my perspective 
from southern California.
    I am concerned about the Commission, though, in terms of 
some of the items that I look at in terms of how user fees 
would be applied to low-income communities. It would be a 
hardship, I think, in some areas, and not just in southern 
California, but in other parts of the country where you have 
low-income populations or rural areas that can't come up with 
the fees to pay for the construction of these projects. So that 
would be one of my concerns that perhaps the Commission could 
take up to make sure that that is represented in their goals 
and in the structure there.
    And the other would be the differences between private and 
public providers in terms of conservation and how that is 
conducted. And if, in fact, public entities are not making a 
profit because they are conserving water and private providers 
make a profit because they sell water, then how do we make that 
nexus come together so we are working on the same goals so that 
we do have a fair and equitable process in place? Those would 
be my concerns.
    Mr. Linder. First of all, we pay user fees for water now, 
in every jurisdiction I am familiar with. I get a water bill in 
my home in Georgia on a monthly or bimonthly basis. The idea 
behind the user fee language is that if the Federal Government 
helps a region with a large infrastructure project, storage 
project or fixing pipes, it would bond that money, I assume, 
over a period of time and then pay it back with the fees for 
the people who are using water.
    But I am perfectly willing for this Commission to work 
through those issues you raised. As I said, I want to start the 
first small step on the way to get everyone at the same 
discussion table. We looked over the last several years how the 
interstate highway system was built and how that huge 
engineering project was pulled off, and it is a great, great 
asset to this country today. We discovered that the Eisenhower 
Interstate Highway System was actually started in 1938 by FDR 
with a commission to bring together some experts to consider 
how to move people around this growing country. And it was 
added to by Truman, and Eisenhower got the credit because he 
decided that the way to fund it was to pass an excise tax on 
gasoline so that people who used most of the roads would pay 
for most of the costs. That is the whole idea behind the user 
fee.
    But I am perfectly willing to let this Committee shape this 
Commission or help shape this Commission in a way that you 
think would be more responsive and let the Commission deal with 
these questions. I envision a commission that may take longer 
than a year. We need to talk about that. But I envision a 
commission that ultimately comes up with some recommendations 
and then moves on to a bigger committee, and bringing all the 
engineering and hydrological skills in before we start any 
project.
    The very first step we can take is toward conservation. It 
is a very inexpensive way to do it, and we can let the 
governments and the private sectors be treated alike on this. 
But I think the Commission should take all the questions that 
you raised to their table and deal with them.
    Ms. Solis. Just one other comment. I understand that there 
was a water policy commission that was set up in the past in 
1998, but few of those recommendations were ever followed up 
on. How would this be different from that?
    Mr. Linder. That is our job. If they make recommendations, 
and we refuse to follow those recommendations, we have fallen 
down. A lot of recommendations were made by the Committee that 
was started in 1965 and ended in 1982. Many of those 
recommendations were not followed, but some were, and they made 
great improvements in water policy at the time. It is their job 
to get the answers and our job to consider and implement those 
answers.
    Ms. Solis. Look forward to seeing the results of that.
    Mr. Calvert.  Gentleman from Nebraska?
    Mr. Osborne. No questions.
    Mr. Calvert.  Our second panel will now be introduced: John 
W. Keys, the Commissioner, Bureau of Reclamation, U.S. 
Department of Interior. Good afternoon, Commissioner Keys. You 
may begin your testimony whenever you like.

STATEMENT OF JOHN W. KEYS, COMMISSIONER, BUREAU OF RECLAMATION, 
                U.S. DEPARTMENT OF THE INTERIOR

    Mr. Keys. Mr. Chairman, thank you very much. I am John 
Keys, Commissioner of the Bureau of Reclamation, and I am 
certainly pleased to be here to present the Department of the 
Interior's views on H.R. 3561, legislation that would establish 
the Twenty-First Century Water Policy Commission. I would ask 
that my full written statement be included in the record.
    Mr. Calvert.  Without objection, so ordered.
    Mr. Keys. Mr. Chairman, the Department supports efforts as 
in H.R. 3561 to plan for our Nation's future water needs. With 
the continued drought that we are experiencing all over the 
country this year, we see that there is little doubt in the 
challenge for the 21st century in us delivering good water to 
all of our people. Reclamation and other Interior agencies 
bring both experience and expertise to support such an effort.
    Mr. Chairman, for the past century, Reclamation has played 
an integral role in the development of Federal water management 
policy. Congress authorized early Reclamation water projects to 
help settle the arid West. Over the course of this 100 years of 
service, Reclamation has become the largest water resources 
management agency in the West, delivering 30 million acrefeet 
of water annually from 348 reservoirs. Our projects supply 
water to more than 31 million people and about one-third of the 
irrigated agriculture in 17 Western States. The Bureau's 58 
power plants produce more than 42 billion kilowatt hours of 
electricity every year, making it the second largest hydropower 
utility in the United States. We have a presence in every major 
river basin in the West, and we work with State water rights, 
interstate compacts, judicial decrees, international treaties, 
interstate and interbasin projects, and the water service that 
we provide complies with all Federal water rules and 
regulations, the National Environmental Policy Act, the Clean 
Water Act, Endangered Species Act and others that are there.
    Mr. Chairman, we welcome the opportunity to work with the 
Twenty-First Century Water Policy Commission. Secretary Norton 
and I pledge our support to help make it successful. Mr. 
Chairman, one suggestion for the Commission. Interior and the 
Bureau of Reclamation work in an environment of cooperation 
with State, tribal and local governments. H.R. 3561, with 
respect to water in the 17 Western States, should formally 
recognize the primacy of State law in the allocation of water. 
Also, given that primacy of the States in western water law and 
management, we feel that membership of any commission under 
H.R. 3651 should include several additional representatives 
from the States.
    Mr. Chairman, that concludes my statement on 3651. If you 
would like, I can go right into the next one, or would you like 
me to answer questions now?
    Mr. Calvert. Go ahead to the next bill.
    Mr. Keys. Mr. Chairman, the next part of the testimony 
deals with H.R. 4638, reauthorization of the Mni Wiconi Rural 
Water Supply Project. Again, I would ask that the full text of 
my written statement be included in the record.
    Mr. Calvert. Without objection.
    Mr. Keys. This project serves the Pine Ridge/Rosebud and 
Lower Brule Indian reservations and seven counties in 
southwestern South Dakota. H.R. 4638 would increase the 
authorization ceiling for the project and extend by 5 years the 
time period for which appropriations are authorized. Since the 
project cannot be completed without these changes, the 
Department of the Interior supports enactment of H.R. 4638.
    The Mni Wiconi Rural Water Project was authorized in 1988 
and included the Oglala Sioux Rural Water System, the Oglala 
Sioux core system, the West River supply system and the Lyman-
Jones Rural Water System. The Mni Wiconi Project was expanded 
in 1994 to include the Rosebud Sioux and Lower Brule Sioux 
Rural Water Systems. The authorizations intended construction 
to be completed within 10 years, and appropriations were 
authorized through Fiscal Year 2003; however, annual 
appropriations have been insufficient to complete construction 
within the timeframe originally laid out in the final 
engineering report.
    H.R. 4638 extends to the year 2008 the authorization for 
appropriations to complete the project. The bill also increases 
the authorized ceiling by $58.8 million, from $345,997,000 to 
$404,797,000, to provide the necessary appropriations.
    Mr. Chairman, the administration is firmly committed to 
completing the Mni Wiconi Rural Water Supply Project. We 
strongly support H.R. 4638.
    That concludes my oral statement on that one, and I would 
certainly stand to questions on either one of the bills.
    Mr. Calvert. Thank you, Commissioner.
    [The prepared statement of Mr. Keys on H.R. 3561 follows:]

 Statement of John W. Keys, III, Commissioner, Bureau of Reclamation, 
             U.S. Department of the Interior, on H.R. 3561

    My name is John Keys and I am Commissioner of the U.S. Bureau of 
Reclamation (Reclamation). I am pleased to provide the views of the 
Department of the Interior on H.R. 3561. This bill would establish the 
Twenty-First Century Water Policy Commission to study water management 
throughout the nation and develop recommendations for a comprehensive 
water policy. The Department supports efforts, as in H.R. 3561, to plan 
for our nation's future water needs. The American people would benefit 
from efforts to bring together qualified people to look at what 
information we have, analyze trends, and find out what's on the cutting 
edge of water use, reuse, and all aspects of water management. 
Reclamation and other Interior agencies bring both experience and 
expertise to support such an effort.
    A tremendous amount of research on water needs and management 
already has been done. In addition, numerous Federal, state, tribal, 
local and private organizations are trying to determine how best to 
meet their future water needs. At the Department of the Interior, 
Secretary Norton is currently in the process of analyzing how to meet 
water needs in the western states over the next 25 years.
    What we need most is to have qualified people--including 
representatives of academia; science and technology; legal, 
environmental, and community organizations; state, tribal, Federal, and 
local governments--compile and analyze existing water use management 
data, examine population trends, identify existing technologies as well 
as research & development on advances in water-related technologies.
    As the Subcommittee considers H.R. 3561, we encourage you to keep 
in mind the responsibilities that Congress (and the judiciary, in some 
cases) has placed on the Department of the Interior. The Secretary of 
the Interior, for example, is the Water Master for the Colorado River. 
For the past century, Reclamation has played an integral role in the 
development of Federal water management policy.
    Congress authorized early Reclamation water projects to help settle 
the arid lands of the American west, by providing water for irrigation. 
Over the course of this century of service, Reclamation has become the 
largest water resources management agency in the west, delivering 30 
million acre-feet annually from 348 reservoirs. Reclamation projects 
supply water to more than 31 million people and one-third of irrigated 
agriculture in the western states. The Bureau's 58 power plants produce 
more than 42 billion kilowatt hours per year, making Reclamation the 
2nd largest hydropower utility in the United States. Reclamation has a 
presence in every major river basin in the west, and is responsible for 
implementing, as delegated by the Secretary of the Interior, interstate 
compacts and judicial decrees, international treaties, and interstate 
and interbasin projects.
    Reclamation takes great pride in providing these water-related 
services to the public. The Bureau is constantly working, often in 
partnership with states and other non-Federal entities, to improve 
water management in order to meet ever-increasing demands for water 
from Reclamation projects. Reclamation works in an environment of 
cooperation with state, tribal, and local governments and other Federal 
agencies. Given the deference to state law in the allocation of water, 
membership on any commission should include several additional 
representatives from the states. Also, tribal representation should be 
assured.
    As a long-time leader in water management and delivery in the West, 
Reclamation works with its contractors and customers, state, local, and 
tribal governments, as well as other Federal agencies, to assess and 
meet future water needs; and with municipal and rural domestic water 
consumers to deliver clean drinking water. We are partnering with 
qualified entities on finding innovative and cost-effective ways to 
recover otherwise non-potable water in water-short areas of our 
country. Reclamation is committed to delivering water under our 
contracts, meeting applicable environmental laws, and abiding by state 
water laws in the process.
    Thank you for this opportunity to comment. I will be glad to answer 
any questions.
                                 ______
                                 
    [The prepared statement of Mr. Keys on H.R. 4638 follows:]

 Statement of John W. Keys, III, Commissioner, Bureau of Reclamation, 
             U.S. Department of the Interior, on H.R. 4638

    I am John Keys, Commissioner of the Bureau of Reclamation 
(Reclamation). I am pleased to present the views of the Department of 
the Interior on H.R. 4638, concerning authorization of the Mni Wiconi 
Rural Water Supply Project. This Project serves the Pine Ridge, 
Rosebud, and Lower Brule Indian Reservations and seven counties in 
southwestern South Dakota. H.R. 4638 would increase the authorization 
ceiling for the Project and extend by five (5) years the time period 
for which appropriations are authorized. Since the Project cannot be 
completed unless these changes are made, the Department supports 
enactment of H.R. 4638.
    The Mni Wiconi Rural Water Supply Project was authorized in 1988 
(P.L.100-516) and included the Oglala Sioux Rural Water System, the 
Oglala Sioux Core System, the West River Rural Water System, and the 
Lyman-Jones Rural Water System. The Mni Wiconi Project was expanded in 
1994 (P.L.103-434, Title VIII) to include the Rosebud Sioux and Lower 
Brule Sioux Rural Water Systems.
    The authorizations intended construction to be completed within 10 
years, and appropriations were authorized through 2003. However, annual 
appropriations have been insufficient to complete construction on the 
Project within the time-frame originally planned in the Final 
Engineering Report.
    H.R. 4638 extends to the year 2008 the authorization for 
appropriations to complete the project. The bill also increases the 
authorized ceiling by $58.8 million to cover expenses that were not 
identified until after the sponsors (the Oglala, Rosebud and Lower 
Brule Sioux Tribes and West River/Lyman-Jones Rural Water Systems) 
released their Final Engineering Report, plus estimated administrative 
costs related to the extension from 2003 to 2008.
    Mr. Chairman, the Administration is firmly committed to completing 
the Mni Wiconi Rural Water Supply Project. If H.R. 4638 is not enacted, 
the authority for appropriations will expire in 2003; Project 
construction would be shut down and the full benefits of the Project 
would not be realized. Only a portion of the Project population would 
be served water. If the expiration date is extended without a 
corresponding increase in the cost ceiling, the project would have to 
be redesigned to determine which features could be constructed within 
the available ceiling. This unfortunate prospect may be averted if H.R. 
4638 is enacted, and I reiterate the Department's support for the bill.
    This concludes my statement, and I would be glad to answer any 
questions.
                                 ______
                                 
    Mr. Calvert. Since you have been on the job, you have had a 
number of crises that were put on your plate, and I compliment 
you on how you have dealt with them, but nevertheless, many of 
these are because of the lack of water and other demands, one 
of which has, of course, caused a lot of problems up in Klamath 
in southern Oregon and northern California. And we have other 
crises that could occur. As you know, Lake Mead is at a very 
low level. I understand it is at the lowest level that it has 
been since 1970; is that correct?
    Mr. Keys. That is correct.
    Mr. Calvert.  If we don't get some late-season rain, it is 
very likely we could have some severe drought problems in the 
States that are serviced by that area; is that also true?
    Mr. Keys. Mr. Chairman, it does not depend on whether we 
get rain this summer. We are already in that drought situation 
in most of the Western States. The last count we had, there 
were five of the States that have already declared emergencies 
there or disaster emergencies, and we are working closely with 
them on their drought program.
    Mr. Calvert. It can only get worse from this point forward 
more likely?
    Mr. Keys. That is right.
    Mr. Calvert. And in all of the States that we deal with on 
this Committee and certainly in your job, you are having to 
work with Federal law all the time, Clean Water Act, Clean 
Drinking Water Act, and certainly the Endangered Species Act, 
which is causing difficulties on how we manage our water 
resources. So do you believe a commission such as the one that 
Congressman Linder is proposing--I am sure Mr. Linder would be 
happy to work with you and other folks to fashion this 
Commission where people in States are not threatened--feel 
threatened that their water rights are being threatened or 
their operations are being threatened. They are also 
recognizing that they are having to deal now with Federal law 
in how they are managing their resources, and this could be 
helpful to them in those challenges ahead. Do you think that is 
correct?
    Mr. Keys. Mr. Chairman, I certainly do. If you look at the 
history of Reclamation, section 8 of the 1902 Reclamation Act 
says that when we build a project, we have to obtain a State 
water right, and then after the project is in construction, to 
operate that project within that State water right. Over the 
100 years that Reclamation has been there, we have been very 
successful at doing that. Since NEPA was passed in 1969, since 
the Clean Water Act was passed in the 1970's and the Endangered 
Species Act in the 1980's, we think we have been successful in 
walking that line of accommodating those regulations, at the 
same time meeting our contracts.
    The situation at Klamath this last year is the first time 
that we have not been able to meet those contracts because of 
one of those laws. We have worked very diligently on that since 
last year, and we are delivering water this year in full 
compliance with the Endangered Species Act. We think we have an 
expertise and experience that we could bring to this Commission 
that would show how to do some of those things and, we think, 
do them productively.
    Mr. Calvert.  I am sure--in fact, if this goes forward, and 
the Linder Commission moves ahead--and I am sure that your 
Department is going to be a very integral part of that. And 
certainly we have issues, as I discussed in my opening 
statement, on the Rio Grande with foreign countries. We have a 
difficult problem right now, a matter of meeting with the 
Governor of the Chihuahua a little later this afternoon, I 
believe, in trying to resolve that issue. So these are 
difficult problems we have to deal with.
    Ms. Solis, do you have any questions?
    Ms. Solis. Actually I would just like to request unanimous 
consent, Mr. Chair, to submit for the record some materials, a 
final report of the Western Water Policy Review Advisory 
Commission and report of the Water Policy Conference sponsored 
by the University of Colorado School of Law.
    Mr. Calvert. Without objection, so ordered.
    [NOTE: The two reports referenced above have been retained 
in the Committee's official files.]
    Mr. Calvert. Mr. Linder?
    Mr. Linder. I would just like to make the comment that I 
would welcome your suggestions for people you think should be 
represented on the commission. I would also welcome your coming 
up with some language that you are comfortable in your 
Department to make sure we protect State rights. I have talked 
to a couple of folks about that, and I know it is an important 
issue. I want to do whatever we can statutorily to protect the 
States' water rights.
    Mr. Keys. Mr. Chairman, Mr. Linder, we will certainly 
provide to you with that language and some suggestions for the 
membership there.
    Mr. Linder. Thank you.
    Mr. Calvert. Mr. Osborne, any questions?
    Mr. Osborne. Nice to see you again, Mr. Keys. Thank you for 
being here. You and I are regular conversers, I guess, and you 
probably know what I am go to go talk about.
    The Klamath Basin issue has been raised previously, and 
obviously this was a matter of great deal of concern to 
farmers, some embarrassment maybe to Interior. And I guess my 
perception is that had we had more accurate data--if the 
National Academy of Sciences study had been done before last 
summer, might have headed off some of the issues where we 
diverted a lot of water down the Klamath River, which didn't 
help the coho salmon.
    And as I told you many times, we have what I think is an 
analogous situation in the Platte River in Nebraska where, 
because of the Endangered Species Act, we now have instream 
flow requirements that require 140,000 acrefeet of water down 
the Platte River, much of which is not used for irrigation, and 
we really don't think it complies--that the Endangered Species 
Act is being accurately applied here. We have talked to Fish 
and Wildlife, and we have put in an application for a study, 
and so often what seems to happen is that Fish and Wildlife is 
going to back up Fish and Wildlife.
    And so we think it is absolutely critical that we have 
something done here because the ultimate plan is for Fish and 
Wildlife to control 416,000 acrefeet of water in the Platte 
River, which is equivalent to all of the water used in the 
State of Nebraska in regard to irrigation of the Platte River; 
shuts down the whole valley and would be a huge economic 
consequence.
    And so, again, I would like to reiterate my concern in the 
fact that I think all of us can save a great deal of heartache 
and concern and an accurate application of the law if we get a 
study done. And as you know, I have been pushing for it. So I 
guess my mode of operation at the present time is keep talking 
about it until someone does it. So I wanted to bring that up 
again.
    And as I see the whole situation in the West right now, we 
have, as you have mentioned, a situation of widespread drought, 
and the Endangered Species Act, as I see it right now, has huge 
implications for that whole area. And no one argues with saving 
endangered species. We just feel it needs to be accurately 
applied, and we can't afford mistakes. So I am wondering if you 
had any further thoughts or anything you would like to offer in 
that regard?
    Mr. Keys. Mr. Chairman, Mr. Osborne, certainly on the 
Platte River, I have a personal involvement there with the 
governance committee. And I would tell you that before any of 
the plans or projects are implemented there, we will certainly 
do an adequate review. We are looking at the review that you 
have mentioned, and we are actually doing some peer review as 
we go along. And as I said, certainly before we implement any 
of those, there will be a thorough review.
    On the Endangered Species Act and the rest of the West 
right now, I think the problem that Mr. Calvert mentioned 
before about the Rio Grande River or the Rio Grande--I make 
that mistake quite often because that is a double--whatever. If 
you look at the water conditions in the Rio Grande, they are 
indicative of some of the problems we are trying to deal with. 
The inflow to Elephant Butte Reservoir has been projected at 2 
percent of normal, and those are disastrously historic lows 
that we are trying to deal with. We are trying to make use of 
the water in the basin. And certainly within the court orders 
that have been done there, we are walking a thin line in making 
water available and taking it from those contractors. And we 
have had excellent cooperation from the city of Albuquerque, 
from the State of New Mexico, and right now we have a plan that 
will keep the fish alive and keep the water supply available in 
the middle of the Rio Grande area there.
    I will tell you that is a challenge, and that is not the 
only place we have a challenge this year. On the Milk River in 
Montana, we are at again historic lows there. There is some 
water in Canada that is helping us with the bull trout. That is 
the endangered species there. And certainly I could go on with 
other examples. But so far we have been able to find water 
supplies and make them available, and the question is how much 
does it cost? And I will tell you it is very expensive, but we 
are able to do that and still meet our contract requirements.
    Mr. Osborne. I might just mention one other thing, and it 
is not just administering flows, because as you know, we now 
have a no new depletions rule in Nebraska, which means a rather 
arbitrary limit of 3 miles from the river you can't build a new 
well. If you do, you have to have an offset. You have to shut 
down one to drill one. Nobody quite knows for sure what the 
limits of that alluvium are.
    So, you know, we are talking about instream flows, but we 
are also talking about irrigation in general, and there is no 
question that there is an interaction between surface water and 
groundwater, but I think we need to have more accurate data 
before we impose a restriction like we have right now.
    Again, I want to reiterate the need for an independent 
study, and I am glad to hear that you are thinking about and 
that you are working on it, and we will continue to stay in 
touch with you.
    Mr. Keys. Mr. Chairman, Mr. Osborne, the one thing I would 
add to the end there, we are working very closely with the 
State of Nebraska. And certainly as they see a balance there 
between development and protection of existing water supplies 
and water rights, we will work very closely with them in doing 
that.
    Mr. Osborne. Thank you. I yield back.
    Mr. Calvert. I would be happy to work with the gentleman to 
get some authorization language and potentially some 
appropriations necessary to perform such a study and see if we 
can't--
    Mr. Osborne. Thank you, Mr. Chairman, that is the nicest 
thing I heard today.
    Mr. Calvert. As the staff is listening intently, I know, 
see if we can get that together. We certainly thank you, as 
always, for coming here, Commissioner Keys. And, again, thank 
you for the good job you are doing at the Department, and say 
hi to all our friends over there, and look forward to seeing 
you again soon.
    Our next panel is Betsy A. Cody, Section Head, Natural 
Resources and Earth Sciences, specialist in natural resources 
policy, Congressional Research Service; Thomas F. Donnelly, 
executive vice president, National Water Resources Association; 
Robert S. Lynch, attorney at law, Phoenix, Arizona; and Henry 
J. Vaux, associate vice president, University of California, 
Division of Agriculture and Natural Resources.
    Mr. Vaux, I understand you have to catch a plane soon, so 
we are going to let you go first. So you are recognized. We 
have a 5-minute rule. You will see little lights up there, 
green, yellow and red. Green means that it is fine. Yellow 
means you have 1 minute; and red, hopefully you are wrapping it 
up.
    Mr. Vaux.

  STATEMENT OF HENRY J. VAUX, JR., ASSOCIATE VICE PRESIDENT, 
 UNIVERSITY OF CALIFORNIA, DIVISION OF AGRICULTURE AND NATURAL 
                           RESOURCES

    Mr. Vaux. Thank you, and thank you for taking me out of 
turn to deal with my tight flight schedule.
    Mr. Chairman, my name is Henry Vaux, and I am professor of 
resource economics at the University of California, Riverside, 
and for the past 10 years I have also served as associate vice 
president for agriculture and natural resources of the 
University of California system. I am also the immediate past 
Chair of the Water Science and Technology Board of the National 
Academy of Sciences.
    At the outset I want to thank you for the opportunity to 
testify here today on H.R. 3561. I also wish to thank you for 
your leadership efforts to solve the very considerable water 
problems in California and for your unfailing support of the 
University of California at Riverside. It is very much 
appreciated.
    This bill, H.R. 3561, is directly responsive to the very 
serious water problems which the United States faces in the 
early decades of the 21st century. Population growth, economic 
growth and the widespread recognition of the need to maintain 
and enhance aquatic ecosystems will create very significant 
challenges for the Nation's water managers, and these pressures 
increase at a time when there are important transitions under 
way in the water management arena, transitions which may allow 
us to avail ourselves of significant new technology and 
significant innovations in water management.
    In the last 20 years, Federal water policies, particularly 
those related to the management and development of water 
resources, have fallen into disarray. To a large extent, the 
responsibility for water management and development has been 
left de facto to the States. Even the responsibility for 
Federally supported monitoring programs has been reduced in 
recent years, despite the fact that water and water quality 
data will be essential for characterizing our water problems 
and devising enlightened strategies for solving them.
    For several reasons the fashioning of water management and 
development strategies needed to solve our water problems are 
not likely to be particularly effective if left exclusively to 
the States. I have laid out the arguments that have to do with 
the capacity of States to finance infrastructure and other 
programs within the body of my written testimony. I do want to 
indicate that in no way do I challenge the importance or 
propriety of State water rights and State primacy in the 
management of local water resources.
    A Twenty-First Century Water Policy Commission of the sort 
envisioned by H.R. 3561 is an obvious first step in 
reestablishing comprehensive Federal water policies to help 
guide us in addressing current and future water problems. The 
objectives spelled out in section 32 represent an appropriate 
basis upon which to develop a stronger set of Federal water 
policies. Strong research and strong monitoring are the 
prerequisites, but a comprehensive array of policies covering 
all manner of water and water-related problems are also needed.
    It has been almost 30 years since the last comprehensive 
treatment of national water policy. Some of the recommendations 
issued by the National Water Commission in 1973 are as timely 
today as they were in 1973, but others are now outdated. I 
think you would agree that the circumstances of today are far 
different from the circumstances of 1973, and the water 
problems of today are even more challenging and far more 
complex than they were in 1973.
    I was a member of the staff of the National Water 
Commission which issued its report in 1973, and so I think I 
know of what I speak. It is time for another commission to make 
a thorough examination of our current situation and make 
recommendations based upon science for an integrated set of 
national water policies. The Twenty-First Century Water Policy 
Commission as proposed in H.R. 3561 would be an appropriate 
body to do this.
    I have several suggestions about the specifics of the bill. 
I do believe that a commission composed of outside 
representatives who are people representing industry and others 
who use water would likely be more effective than what is 
proposed in the current draft of the bill. With all due 
respect, a commission comprised predominantly of Federal agency 
heads with all due respect is likely to be consumed with turf 
battles. And finally, I think you will need more than a year to 
address all of the objectives that are listed in this bill.
    Mr. Chairman, I appreciate the opportunity to appear here 
this afternoon. Thank you.
    Mr. Calvert. I thank the gentleman.
    [The prepared statement of Mr. Vaux follows:]

    Statement of Henry Vaux, Jr., Professor of Resource Economics, 
                  University of California, Riverside

    Mr. Chairman, my name is Henry Vaux, Jr. and I am Professor of 
Resource Economics at the University of California, Riverside. For the 
past ten years I have also served as Associate Vice President, 
Agriculture and Natural Resources, of the University of California 
System. I am also immediate past chair of the Water Science and 
Technology Board of the National Research Council. I must emphasize 
that I testify here on my own behalf and my views should not be 
interpreted as those of the University of California.
    At the outset I want to thank you for the opportunity to testify 
here today in support of H.R. 3561. This bill is directly responsive to 
the very serious water problems which the United States faces in the 
early decades of the 21st century. Population growth, economic growth 
and the widespread recognition of the need to maintain and enhance 
aquatic ecosystems will create very significant challenges for the 
nation's water resource managers. These pressures increase at a time 
when there are important transitions underway in the water management 
arena. Dams are proposed for decommission and removal. Scientific 
research hints at potential changes in the hydrologic cycle and changes 
in hydrologic variability. While the changes that characterize this 
transition might seem to make the problems of addressing the new water 
realities more difficult, they may in fact present many new 
opportunities in the form of scientific and technological breakthroughs
    The fragmented Federal policies that governed water resources 
research and management throughout most of the twentieth century will 
probably be inadequate to foster the development of needed water-based 
technologies and the development of more comprehensive knowledge of the 
aquatic environment. The traditional strategy of constructing dams and 
canals to capture and store water so that it can be used at times and 
places where it is needed is no longer as attractive as it once was. 
The most desirable damsites have already been developed. Those that 
remain are difficult and costly to develop and often quite remote from 
places of use. The public financing of large civil works for water 
supply is also far more difficult not only because of the higher costs 
but because of the competition for public funds which is now far more 
intense than it was in the heyday of dams and canals. In addition, we 
now understand that dams can do significant harm to riverine 
environments and the costs of such damages are themselves quite large.
    In the future, new surface water storage and conveyance systems are 
likely to be only a minor part of the mix of strategies needed to 
address the challenge of intensifying water scarcity. The management of 
water demand, whether through pricing, education and/or technology, 
will have to be a significant component of the response to intensifying 
water scarcity. Water recycling and reuse, already a major means of 
augmenting supply in the very arid portions of the county, will have to 
become more widespread both to meet growing demands for water supply 
and to ensure that receiving water quality is maintained and enhanced.. 
(two periods) Modern pollution control policies will be needed and 
those policies should reflect the fact that waste sinks--land, air and 
water--are interrelated and cannot be managed in isolation. And, there 
will be a need for development of new water supply technology, 
including desalinization technology as well as new methods and 
techniques for managing ground water.
    The problems of devising new and innovative means of augmenting 
water supplies and managing water demands will be made more difficult 
by the need to manage water resources in ways that provide adequate 
water for non-consumptive uses. Non-consumptive uses, which are 
sometimes referred to as instream uses, include environmental and 
recreational uses, navigation, the generation of hydroelectric power 
and flood control. Thus, for example, much remains to be done by way of 
restoring the integrity of aquatic ecosystems so as to preserve and 
maintain ecosystem services and environmental stability. Flood control 
and flood management are continuing challenges as evidenced by the high 
flows on the middle Mississippi last week. Energy generation and 
transportation are likely to remain is (an) important water management 
objectives. This means that ways will need to be found to achieve 
appropriate allocative balances between water for consumptive use and 
water for instream or nonconsumptive uses.
    There is evidence that existing science is inadequate to address 
the water problems of the 21st century and better science is going to 
be required if these problems are to be effectively addressed. Thus, 
for example, experience with modified flow regimes on the mainstream of 
the Colorado River, new interest in restoring the historical flows of 
the Missouri River and a major national commitment to restore the 
Everglades all reveal the need for substantially more science. In the 
summer of 2001 diversions were halted in the upper portion of the 
Klamath River basin of Oregon and California in an effort to protect 
several endangered species. The decision to halt diversions resulted in 
significant economic damage to a number of water users. Yet, scientific 
peer reviews ultimately revealed the scientific information upon which 
the decision to halt diversions was based to be inadequate. Clearly, 
better science is needed on which to base the water policies which will 
be needed to guide in solving these types of problems in the future.
    Recently the Water Science and Technology Board of the National 
Research Council published a water resources research agenda for the 
twenty-first century. That publication delineates the major scientific 
research effort that will be needed to develop the knowledge necessary 
to formulate a set of science based water policies for the United 
States, The report emphasizes three main themes:
    <bullet> LThe challenge of solving the nation's water problems will 
require a renewed national research commitment.
    <bullet> LWater quality and water quantity need to be thought of in 
an integrated fashion.
    <bullet> LRelatively more attention needs to be given to innovative 
ways of organizing our water institutions.
    <bullet> LEnvironmental issues will remain a very important part of 
the water resources management agenda.
    These and other recommendations form of (a) blueprint of the kind 
of research needed to underpin an effective national water policy. 
Although the research agenda is ambitious and will require significant 
Federal investment it must be addressed if future national water 
policies are to be based on adequate science. Yet, this is not all that 
must be done.
    In the last twenty years, Federal water policies--particularly 
those related to the management and development of water resources--
have fallen into disarray. To a very large extent, the responsibility 
for water management and development has been left de facto to the 
states. Even the Federally supported monitoring programs have been 
reduced in recent years despite the fact that water and water quality 
data are essential if water problems are to be accurately characterized 
and enlightened strategies for solving them are to be formulated. For 
several reasons, the fashioning of water management and development 
strategies needed to solve the nation's water problems is not likely to 
be particularly effective if left exclusively to the states. First, 
states do not have the financial resources necessary to develop and 
rehabilitate the needed water infrastructure. Second, state boundaries 
almost never coincide with watershed boundaries thereby leading to 
watershed management policies that are either partial or fractionated. 
Third, frequently there are circumstances in which the states have an 
incentive to compete with each other in an effort to make themselves 
attractive to new industry. Often these same incentives lead to a 
diminution of water quality or to over allocation of scarce water 
resources. For all of these, reasons, the Federal Government needs to 
reassert a strong role in the management and development of water 
policy.
    A Twenty-First Century Water Policy Commission of the sort 
envisioned in H.R. 3561 is an obvious first step in reestablishing 
strong and comprehensive Federal water policies to guide the nation in 
addressing its water problems. The objectives spelled out in Section 
III (2) represent an appropriate basis upon which to develop for a 
stronger set of Federal water policies. Strong research and monitoring 
programs are clearly prerequisite but a comprehensive array of policies 
covering all manner of water and water related problems are also 
needed. It has been almost thirty years since the last comprehensive 
treatment of national water policy. Some of the recommendations issued 
by the National Water Commission in 1973 are as timely today as they 
were then. Many of the others are now outdated. The circumstances of 
today are far different than they were in 1973. The water problems of 
today are even more challenging and complex than they were in 1973. It 
is time for another Commission to make a thorough examination of our 
current situation and make recommendations for an integrated set of 
national water policies. The Twenty-First Century Water Policy 
Commission proposed in H.R. 3561 would be an appropriate body to do 
this.
    Mr. Chairman, I appreciate the opportunity to appear here and I 
hope that your subcommittee will act favorably on H.R. 3561. Thank you.
                                 ______
                                 
    Mr. Calvert. Betsy Cody, Section Head, Natural Resources 
and Earth Sciences, is recognized.

STATEMENT OF BETSY A. CODY, SECTION HEAD, NATURAL RESOURCES AND 
  EARTH SCIENCES AND SPECIALIST IN NATURAL RESOURCES POLICY, 
      CONGRESSIONAL RESEARCH SERVICE, LIBRARY OF CONGRESS

    Ms. Cody. Good afternoon. I am a specialist in natural 
resources policy for the Congressional Research Service, 
Library of Congress. Mr. Chairman and members of the 
Subcommittee, thank you for this opportunity to provide 
background for the Subcommittee as it considers H.R. 3561. I 
would ask that my full written testimony be included in the 
record.
    Mr. Calvert. Without objection, so ordered.
    Ms. Cody. My purpose today is to provide an overview or 
context for a discussion of the proposal to establish the 
Twenty-First Century Water Policy Commission. My testimony 
covers two areas: First, the evolution of the Federal role in 
Federal water policy, and second, a summary of the major study 
commissions established over the last 50 years. Please note 
that the information I provide today is for background purposes 
only. CRS takes no position on pending legislation.
    The responsibility for development and management of water 
resources is spread among many Federal, State, local, tribal 
and private interests. Nearly two centuries of project 
development as well as environmental and resource management 
activities have created a very complex web of Federal and State 
water laws, regulations, and even contractual obligations and 
economies based on existing infrastructure. Complicating these 
matters further is the dynamic and complex nature of the 
resource itself.
    The Federal role in water policy has evolved to include a 
range of water resource and water quality activities, from 
initial efforts to improve and maintain waterways for 
navigation to the Federal role in expanding investments in 
flood control and providing water for irrigation. Over the 
years new rules were added. For example, water quality 
regulations were developed as were assistance programs to 
communities to meet new treatment objectives. These new and 
sometimes competing rules have generated questions about the 
efficiency and coordination of Federal water policy activities. 
These questions then necessarily involve the attention of 
numerous congressional Committees and Federal agencies. 
Currently there are more than 12 standing Committees in the 
House and the Senate that have some jurisdiction over--that 
claim some jurisdiction over various components of Federal 
water policy. Similarly several agencies also have 
responsibilities for implementing the laws that these 
Committees report.
    In response to perceived inefficiencies, potentially 
conflicting programs, and requirements of Federal water policy, 
Congress, the executive branch and others have employed 
commissions to identify ways to bring order to the Federal 
role. Since 1950, at least six such commissions have examined 
the Federal water policy, and there have been numerous others 
throughout the latter part of the 20th century. Several were 
established by Congress. Some were made up of non-Federal 
members appointed by the President. One consisted solely of 
Federal officials and was set in the White House. Another was 
solely congressional, consisting of 17 Senators.
    The reports of these commissions ranged from policy 
recommendations and overviews to data-intensive assessments of 
the Nation's water resources. Each report is summarized in my 
written testimony beginning on page 11 in the table.
    In 1950--the 1950 report of the President's Water Policy 
Commission identified specific needs for river basin planning 
and coordination. While the recommendations of this report were 
widely discussed, tensions over specific project funding and 
executive branch versus legislative branch priorities, not 
unlike those of today, stalled implementation of those 
recommendations. Others on this panel will talk about some of 
the other commissions during this time.
    The stalemate led by--this stalemate between the executive 
branch and legislative branch led to the creation of a second 
group, the Senate Select Committee on National Water Resources. 
Many recommendations of the 1961 Senate select Committee report 
were then enacted in the Water Resources Planning Act of 1965. 
The 1965 act created the Water Resources Council. The Council 
published two assessments on water resources supply and 
availability, one in 1968 and one in 1978, as well as 
principles and guidelines that are still used today for project 
planning and evaluation.
    In 1968, the National Water Commission was established to 
review Federal water policies in the wake of numerous attempts 
and proposals to develop the Colorado River Basin and even 
import water supplies from the Columbia River. The Commission 
issued its final report in 1973, and the report does appear to 
have contributed to numerous policy changes implemented over 
the following 15 years.
    In 1987, the National Council on Public Works Improvement 
reported on water supply and infrastructure needs. Finally, the 
Western Water Policy Review Commission issued a report in 1998 
which recommended 10 principles for water management for the 
21st century.
    In summary, Mr. Chairman, while many experts and some 
States have called for better coordination of the complex web 
of Federal water policy activities, no comprehensive change in 
Federal water resources management has occurred since enactment 
of the Water Resources Planning Act of 1965. Changes have 
occurred incrementally, agency by agency, statute by statute. 
More comprehensive changes were impeded both by the diversity 
of needs and interests and by the complexities associated with 
long-term commitments and the infrastructure already in place. 
New demands on traditional multipurpose water resources 
agencies like the Corps of Engineers and the Bureau of 
Reclamation, combined with calls for an increased Federal 
investment in water treatment and drinking water 
infrastructure, are again raising the questions related to the 
future role of water supply development and how such a goal 
ought to be coordinated.
    Thank you. This concludes my statement, and I would be 
happy to answer any questions.
    Mr. Calvert. Thank the gentlelady.
    [The prepared statement of Ms. Cody follows:]

 Statement of Betsy A. Cody, Section Head, Natural Resources and Earth 
Sciences Section of the Resources, Science, and Industry Division, and 
Specialist in Natural Resources Policy, Congressional Research Service, 
                          Library of Congress

    Good afternoon. My name is Betsy Cody. I am a specialist in Natural 
Resources Policy for the Congressional Research Service, Library of 
Congress and currently head the Natural Resources and Earth Sciences 
Section of the Resources, Science, and Industry Division. Thank you for 
this opportunity to respond to your request for background information 
on the current and historic Federal roles in water supply development, 
as well as for information on several national water commissions, 
committees, and studies undertaken since 1950.
    My purpose today is to provide an overview, or context, for a 
discussion of an effort to study and coordinate all aspects of Federal 
water policy. My testimony covers two areas: 1) the evolution of 
Federal project and program authorities for water supply development, 
touching briefly on Federally supported water and wastewater treatment 
programs; and 2) major study commissions that have assessed water 
availability, institutional issues, and to a degree, facilities' needs 
over the past 50 years. <SUP>1</SUP> The information provided herein is 
for background and analytical purposes only as the subcommittee 
considers H.R. 3561, to establish the Twenty-First Century Water Policy 
Commission. CRS takes no position on pending legislation and does not 
make recommendations.
---------------------------------------------------------------------------
    \1\ More recent studies addressing drinking water and water and 
wastewater treatment facilities needs are not included in this 
analysis.
---------------------------------------------------------------------------
    Today, the Federal Government is involved in a full range of water 
resources and water quality activities, ranging from water resources/
supply development, to water quality regulation and species 
stewardship. However, the responsibility for development and management 
of the Nation's water resources is spread among many Federal, state, 
local, tribal, and private interests. Nearly two centuries of project 
development as well as environmental and resource management activities 
have created a complex web of Federal and state laws and regulations, 
contractual obligations, and economies based on existing water 
resources infrastructure.
    Over time, numerous attempts have been made to review and/or 
coordinate Federal water activities; a few of the more comprehensive 
efforts are outlined below. <SUP>2</SUP> These efforts have included 
creation of an Executive Branch agency to coordinate and plan for 
Federal water activities, including activities of several river basin 
commissions (Water Resources Planning Act of 1965 (P.L. 89-80; 79 Stat. 
245)), recent direction to the U.S. Geological Survey to report on 
efforts needed to undertake periodic assessments of water availability 
and use (House report language accompanying H.R. 2217; H. Rpt. 107-103, 
Department of the Interior and Related Agencies Appropriations Bill, 
2002, June 19, 2001, p. 64) and now H.R. 3561, the subject of this 
hearing, which would establish the Twenty-First Century Water Policy 
Commission.
---------------------------------------------------------------------------
    \2\ One major commission not included in this analysis is the 
National Commission on Water Quality, which was established by 
<l-arrow>315 of the Federal Water Pollution Control Act Amendments of 
1972 (P.L. 92-500). The Commission was charged with making a full and 
complete investigation of all aspects of achieving or not achieving the 
effluent limitation goals established for 1983 and identifying any mid-
course corrections that may need to be undertaken. The Commission's 
final report laid the groundwork for the Federal Water Pollution 
Control Act Amendments of 1977.
---------------------------------------------------------------------------

   Evolution of Federal Project and Program Authorities <SUP>3</SUP>
---------------------------------------------------------------------------

    \3\ For more information on these authorities, see CRS Report 
RL30478, Federally Supported Water Supply and Wastewater Treatment 
Programs, updated February 16, 2001.
---------------------------------------------------------------------------
    The current Federal role in water policy has evolved over nearly 
two centuries to include significant Federal investment in water 
resources infrastructure, creation of water quality standards and 
regulations, and laws affecting both the use and stewardship of aquatic 
resources. The first Federal involvement in water resources development 
was for improving and maintaining waterways for navigational purposes. 
Navigational needs soon gave way to demands for Federal investment in 
controlling floods and for providing water for irrigation. Since the 
turn of the 20th Century, the Federal Government has built thousands of 
individual water resource projects, primarily dams, dikes, and 
diversion projects whose principal purposes were for irrigation and 
flood control. One subset of these Federal water resource activities is 
water supply development.
    While the Federal Government has played a significant role in 
developing water resources through the construction of reservoirs for 
flood control and irrigation, historically it played a relatively minor 
role in funding construction of water supply and treatment facilities 
for municipal and industrial (M&I) uses. Instead, several programs 
exist to assist individually designated or eligible communities with 
development of water supply and treatment projects and it appears 
Congress is being asked more frequently to fund such programs. 
Historically, municipal and industrial (M&I) uses were incidental to 
the larger project purposes of flood control and water supply for 
irrigation. Consequently, most of the Nation's public municipal water 
systems have been built by local communities under prevailing state 
water laws. Consideration of other purposes, such as recreation and 
fish and wildlife, were later added statutorily to the purposes for 
which Federal water resource projects were constructed, operated, and 
managed (e.g., Fish and Wildlife Coordination Act (16 USC 460l-12)). 
<SUP>4</SUP>
---------------------------------------------------------------------------
    \4\ More recently, Congress has authorized particular broadscale 
ecosystem restoration projects in connection with major Federal water 
resource projects that previously altered natural water flows (e.g., 
Everglades legislation in the 106th Congress (Title 6 of P.L. 106-541), 
California Bay-Delta legislation in the 104th Congress (Division E of 
P.L. 104-208); re-authorization of funding for the latter program is 
being debated in the 107th Congress (see H.R. 3208 and S. 1768). 
Efforts to deal with water quality and resource protection issues in 
San Francisco Bay date back to the 1960s. Similarly, efforts to improve 
resource management of the Chesapeake Bay date back several decades.
---------------------------------------------------------------------------
Water Resource Projects of the Bureau of Reclamation and U.S. Army 
        Corps of Engineers
    In pursuit of developing water resources to provide water for 
irrigation and to control flooding, Congress authorized Federal 
construction of numerous water resource projects throughout the middle 
to late 1900s. The largest Federal water projects were undertaken by 
the Department of the Interior's Bureau of Reclamation (Bureau) and the 
Department of Defense's civil works agency, the U.S. Army Corps of 
Engineers (Corps). The Reclamation Act of 1902, as amended, and 
numerous project-specific acts authorized the construction of storage 
and irrigation works in the West. Even though Congress subsequently 
authorized other uses of project water, including M&I use, the 
historical emphasis of the Bureau's operations was to provide water for 
irrigation in the arid and semi-arid areas of the western states. 
Similarly, the Corps constructed large reservoirs primarily for flood 
control under numerous flood control acts throughout the last century, 
but was authorized in 1958 to allocate water for M&I purposes if 
reimbursed by local sponsors (Water Supply Act of 1958, 72 Stat. 320; 
43 USC <l-arrow>390b). In this Act, Congress emphasized the primacy of 
non-Federal interests in water supply development. <SUP>5</SUP> Other, 
smaller flood control and water supply projects, e.g., those built 
under the Small Watershed Program (P.L. 83-566, as amended; 16 USC 
1001-1006), have been undertaken by the Department of Agriculture's 
Natural Resources Conservation Service (formerly Soil Conservation 
Service).
---------------------------------------------------------------------------
    \5\ ``It is declared to be the policy of the Congress to recognize 
the primary responsibilities of the States and local interests in 
developing water supplies for domestic, municipal, industrial, and 
other purposes and that the Federal Government should participate and 
cooperate with States and local interests in developing such water 
supplies in connection with ... Federal navigation, flood control, 
irrigation, or multiple purpose projects.'' (43 USC <l-arrow>390(b))
---------------------------------------------------------------------------
    Over the past 20 years, the Bureau has been authorized to assist or 
construct several rural municipal water supply projects (often in lieu 
of previously authorized irrigation projects that were not built), as 
well as numerous small water recycling and reuse projects (Reclamation 
Projects Authorization and Adjustment Act of 1992 (Title 16 of P.L. 
101-575), as amended; 43 USC 390h et. seq.). <SUP>6</SUP> Since 1992, 
the Corps has been authorized to assist with various ``environmental 
infrastructure'' projects ranging from wastewater treatment, combined 
sewer overflow, water supply, storage, treatment, and related 
facilities as part of successive Water Resources Development Acts in 
1992 (<l-arrow>219 and <l-arrow>313), 1996, 1999, and 2000. While there 
have been appropriations for the Bureau's water re-use (Title 16) 
projects and certain Corps' environmental infrastructure projects, 
funding has not kept pace with project authorizations. Some have argued 
that the future implementation of the rural water supply, environmental 
infrastructure (<l-arrow>219, etc.), and water re-use (Title 16 ) 
projects has the potential to create an altogether new (and perhaps 
competing) mission for the Corps and the Bureau in contrast to their 
traditional multi-purpose water resources projects. Further, there is 
concern that these more recent authorizations may duplicate efforts 
under programs administered by other Federal agencies such as the 
Environmental Protection Agency (EPA). Additionally, recent efforts to 
address ecosystem restoration needs and water quality issues in both 
Florida and California have included proposals for significant water 
supply features. These multi-billion dollar efforts have raised 
concerns about the proper Federal role in providing water and water 
resource infrastructure to communities, about different Federal/local 
cost-share policies, and about equity among the many water resource 
problems facing the country, especially in times of drought and 
competition for budgetary resources. <SUP>7</SUP>
---------------------------------------------------------------------------
    \6\ A similar pilot program for ``alternative water source'' 
projects in non-reclamation states was authorized in 2000 (Title VI of 
P.L. 106-457; 114 Stat. 1975). Under this act, the Administrator of the 
Environmental Protection Agency is authorized to establish a pilot 
program to make grants for water conservation, reclamation, and re-use 
projects to meet critical water supply needs.
    \7\ Comments of Senators Frank Murkowski, Jon Kyl, and others 
during mark-up of S. 1768, Senate Energy and Natural Resources 
Committee, May 16, 2002.
---------------------------------------------------------------------------
General Water Supply Development and Wastewater Treatment
    To date, M&I water supply development and wastewater treatment have 
principally been the domain of local interests and entities, with the 
Federal Government providing significant financial and technical 
assistance through various Federal programs, including grants and 
loans. Except for the water resource projects noted above, these 
programs are found within the Department of Agriculture (Rural 
Utilities Service, Water and Waste Disposal Program <SUP>8</SUP>), the 
Department of Commerce (Economic Development Administration, Public 
Works and Development Facilities Program <SUP>9</SUP>), Department of 
Housing and Urban Development (Community Development Block Grants 
<SUP>10</SUP>), and the Environmental Protection Agency (Clean Water 
State Revolving Loan Fund (SRF) Program <SUP>11</SUP> and Drinking 
Water SRF Program <SUP>12</SUP>). (See attached CRS Report RL30478, 
Federally Supported Water Supply and Wastewater Treatment Programs, 
updated February 1, 2002.)
---------------------------------------------------------------------------
    \8\ 7 USC 1926, with regulations at 7 CFR 1780.
    \9\ 42 USC 3131,3132, 3135, 3137; 42 USC 3211, with regulations at 
13 CFR 302, 305, 316, and 317.
    \10\ 42 USC 5301et seq., with regulations at 24 CFR 570.
    \11\ 33 USC 1381-1387, with regulations at 40 CFR 35.3100.
    \12\ 42 USC 300j-12, with regulations at 40 CFR 35.3500.
---------------------------------------------------------------------------
    The practical difference between the individual project 
authorizations of the Bureau and the Corps, and the programs of these 
other agencies is that individual project authorizations offer no 
predictable assistance, or guarantee of funding after a project is 
authorized, because funding must be approved via the congressional 
appropriations process. The programs, on the other hand, have set 
program criteria, are authorized for multiple years, are generally 
funded from year to year, and provide a process under which project 
sponsors compete for funding. Whether recent authorizations for rural 
water supply and re-use projects, water supply/ecosystem restoration 
projects, and environmental infrastructure projects signal a shift in 
congressional policy to a more direct or larger Federal involvement in 
water supply development is not yet clear.
Looking Ahead
    Decisions about the future of U.S. water resources policy are 
inextricably linked to the past. Nearly two centuries of water 
resources project development has created a complex web of Federal and 
state laws and regulations, contractual obligations, and economies 
based on existing water resources infrastructure. Complicating matters 
further is the complex and dynamic nature of the resource itself. The 
basic hydrologic cycle, floods, droughts, groundwater, and the chemical 
and biophysical nature of water are in a constant state of flux. Added 
to the resource complexities are the dimensions of human use. Water is 
abundant in some areas and not others. Making water available through 
irrigation was a key part of national policies to settle the West. In 
many areas, essentially all water has been allocated--perhaps over-
allocated in dry years.
    While the implications of water use are most critically apparent at 
the local level, water flows across political boundaries. In the West, 
especially, many headwaters rise on Federal lands, and numerous Indian 
Tribes hold treaty rights to many to waters and related resources. With 
this complexity in the nature of water resources, over time, myriad 
laws have been enacted to allocate and regulate water use, protect its 
quality, develop its energy potential, contain its destructive powers, 
and maintain or enhance its biological integrity.
    The many aspects of water resources supply and development and of 
the programs and processes involved engage the attention of numerous 
congressional committees and Federal agencies. For Congress, this has 
resulted in a complex set of diverse and sometimes overlapping 
committee jurisdictions dealing with various aspects of water policy. 
For example, the issues discussed in this overview have largely been 
handled by four authorizing committees: the House Resources Committee, 
House Transportation and Infrastructure Committee, the Senate Energy 
and Natural Resources Committee, and the Senate Environment and Public 
Works Committee; however, some resource management issues (fisheries, 
wildlife, wetlands, and watershed management in particular) involve 
other, committees and subcommittees. Currently, at least 12 standing 
committees in the House and Senate have some jurisdiction over various 
components of Federal water policy. Of the House Resources Committee 
alone, four of the five subcommittees have specific references to some 
aspect of water resources management in their jurisdictional 
descriptions. <SUP>13</SUP>
---------------------------------------------------------------------------
    \13\ Rules for the Committee on Resources. U.S. House of 
Representatives, 107th Congress. Rule 6. Establishment of 
Subcommittees; Full Committee Jurisdiction; Bill Referrals. Adopted 
February 14, 2001. The full text of the Resources Committee's rules for 
the 107th Congress can be found at Congressional Record (daily 
edition), v. 147, February 26, 2001, pp. H402-H405.
---------------------------------------------------------------------------
    Further, several different executive branch departments and 
agencies are responsible for implementing various laws under the 
jurisdiction of these committees. These arrangements can complicate 
management of river systems and resources comprising large watershed 
areas such as the Missouri and Mississippi River Basins, Columbia and 
Colorado River Basins, and the California Bay-Delta, and even smaller 
systems, especially where anadromous fisheries are involved. Similarly, 
multi-jurisdictional management of water and resources found in the 
Great Lakes basin, the Florida Everglades, and the Chesapeake Bay, are 
challenging existing institutional structures to deal with various 
aspects of water policy. Not only do various departments and agencies 
have different and sometimes competing responsibilities, they also face 
the difficult task of coordinating their actions and decisions.
    While many experts and some states have called for better 
coordination of Federal water policy activities, Congress has not 
enacted any comprehensive change in Federal water resources management 
since the Water Resources Planning Act in 1965 (P.L. 89-80; 42 USC 1962 
et seq.)--and this predates the substantial role of the Environmental 
Protection Agency in water quality protection since the early 1970s, as 
well as passage of the National Environmental Policy Act (NEPA) in 1969 
and the Federal Endangered Species Act (ESA) in 1973. Instead, Congress 
has enacted numerous incremental changes, agency by agency, statute by 
statute. Where coordination of Federal activity has occurred, it has 
been driven largely by pending crises, such as potential threatened or 
endangered species listings, droughts or floods, and by local or 
regional initiatives. Consequently, criticism of the fractured nature 
of water policy at the Federal level has been a recurrent theme for 
decades. Yet, any attempt to untangle the complexities of current 
national water policy involves many constituencies with many differing 
interests. For example, states historically have been wary of Federal 
involvement in intrastate water management and allocation issues and 
thus, even in cases where the Federal Government is directly involved 
in building water supply facilities, Congress has recognized that 
states generally have primacy in intrastate water allocation. 
<SUP>14</SUP>
---------------------------------------------------------------------------
    \14\ This is not generally a question of what powers the Federal 
Government has and could exercise under the Constitution. Congress has 
often required that the United States defer to or comply with state law 
in the construction and operation of Federal facilities pertaining to 
allocation, control, or distribution of water (e.g., Sec. 8 of the 
Reclamation Act of 1902, 32 Stat. 390; 43 USC 372, 383). Other laws 
recognizing state primacy and their effects have been the subject of 
much judicial interpretation.
---------------------------------------------------------------------------
    As one can see, the Federal role in water policy at the national 
level is both complex and dynamic. Efforts to pull together the many 
divergent problems and issues associated with water management have on 
several occasions included the use of commissions to identify ways to 
bring order or cohesion to the many and varied aspects of Federal water 
policy. Several such efforts occurring in the latter part of the 20th 
Century are discussed below.

             Major Water Resources Studies and Commissions

    Several major water resources studies and reports were issued by 
various commissions, committees, and councils in the last half of the 
20th Century. (See summary information in the Appendix to this 
statement.) Efforts to understand and address the growing Federal 
involvement in water resources development largely began in the mid-
1930s with the Mississippi Valley Committee (1934) and the Water 
Resources Committee of President Franklin Roosevelt's Natural Resources 
Commission (1935-1937). Creation of the Tennessee Valley Authority and 
attempts to create other regional authorities for river basins 
throughout the country were debated and studied for decades. These 
efforts culminated with several major policy and assessment studies in 
the later part of the century. <SUP>15</SUP>
---------------------------------------------------------------------------
    \15\ Early efforts at coordinating Federal activities in water 
policy included the Federal Interagency River Basin Committee (also 
known as ``firebrick'') and recommendations of the first Hoover 
Commission (1947 and 1948). In 1968, in its first assessment of the 
Nation's water supply, the Water Resources Council noted that ``during 
the past 60 years, over 20 commissions or committees have looked into 
national water policies and problems.'' (The Nation's Water Resources: 
The First National Assessment of the Water Resources Council. 
(Washington, DC: U.S. Govt. Printing Office, 1968), p. 2-2.)
---------------------------------------------------------------------------
    In December 1950, President Truman issued A Water Policy for the 
American People, which concluded that municipal supply development 
should ``continue to be primarily a local responsibility,'' but 
advocated river basin planning and coordination to streamline 
development and financing needs, <SUP>16</SUP> including the tightening 
of economic standards for evaluating proposed projects and increased 
cost-sharing by local sponsors. In part because many recommendations 
for planning and coordination in Truman's 1950 report had not been 
implemented, because of growing tensions between the executive and 
legislative branches on water policy, <SUP>17</SUP> and because of the 
diversity of jurisdictions over water issues in Congress, the U.S. 
Senate convened a Senate Select Committee on National Water Resources 
in 1959.
---------------------------------------------------------------------------
    \16\ The recommendations for comprehensive planning had long been 
studied. As early as 1908, the Inland Waterways Commission and the 
National Conservation Committee of President Theodore Roosevelt 
recommended study of comprehensive national water resources planning 
and development. (U.S. Senate. Committee on Interior and Insular 
Affairs, History of the Implementation of the Recommendations of the 
Senate Select Committee on National Water Resources. 90th Congress, 2d 
Session. Senate Committee Print prepared at the request of Henry M. 
Jackson, Chairman. (Washington, DC: U.S. Govt. Printing Office, 1969), 
p. 15.)
    \17\ Tensions between the executive branch and the legislative 
branch over fiscal constraints in water resources projects and 
planning, and state roles vis-a-vis Federal agencies roles were 
apparent throughout the 1950s, and beyond. Omnibus Rivers and Harbors 
bills (a precursor to today's Water Resources Development Act (WRDA) 
bills) were vetoed by President Eisenhower in 1956 and in 1958, as were 
the Public Works Appropriations Act for Fiscal Year 1960 and proposed 
amendments to the Federal Water Pollution Control Act in 1960. As noted 
in the 1969 History of the Implementation of the Recommendations of the 
Senate Select Committee on National Water Resources, ``[n]ot the least 
of the significant reasons for the existence of a hiatus in the field 
of water resources policy was the division of political power between 
the Republican Party which controlled the executive branch from 1953 to 
1961, and the Democratic Party which controlled both Houses of Congress 
from January 1955 on.'' (See Infra note 14, p. 7.)
---------------------------------------------------------------------------
Senate Select Committee on National Water Resources
    Members of the final Senate Select Committee on National Water 
Resources were appointed by the chairmen of the four Senate standing 
committees from which the membership was drawn. Four additional members 
were to be appointed by the Vice President (two Senators each from the 
minority and majority parties), for a final total of 17 Senators. 
<SUP>18</SUP> The final report of the committee was issued in January 
1961, along with 32 studies and records from 23 hearings. The results 
of the report were debated in several successive Congresses, including 
many hearings before the predecessor to this Committee, the House 
Interior and Insular Affairs Committee. Noted in the Committee activity 
report for the 86th Congress was the fact that the water subcommittee 
had spent far more time on legislation not enacted than that which had 
become law that Congress. Many of the select committee's report 
recommendations became the foundation of the Water Resources Planning 
Act of 1965.
---------------------------------------------------------------------------
    \18\ Senators Robert S. Kerr, Oklahoma (Chairman); Thomas H. 
Kuchel, California; Dennis Chavez, New Mexico; Allen J. Ellender, 
Louisiana; Warren G. Magnuson, Washington; Clinton P. Anderson, New 
Mexico; Henry M. Jackson, Washington; Claire Engle, California; Philip 
A. Hart, Michigan; Gale W. McGee, Wyoming; Frank E. Moss, Utah; James 
E. Murray, Montana; Milton R. Young, North Dakota; Andrew F. Schoeppel, 
Kansas; Francis Case, South Dakota; Thomas E. Martin, Iowa; and Hugh 
Scott, Pennsylvania. Infra note 14, p. 8.
---------------------------------------------------------------------------
Water Resources Council
    The Water Resources Planning Act of 1965 (P.L. 89-80; 79 Stat. 244 
(42 USC 1962, et seq.)) established the Water Resources Council (WRC), 
a Federal-level water resources coordinating and planning body situated 
in the Executive Office of the President. Members of the Council 
included the Secretaries of the Interior; Agriculture; Army; and 
Health, Education and Welfare; and the chairman of the Federal Power 
Commission (later the Secretary of Energy). Secretary of the Interior 
Stewart Udall chaired the first Council. In 1975 (in P.L. 94-112), 
Congress expanded the WRC to include the Secretaries of Commerce, 
Housing and Urban Development, Transportation, <SUP>19</SUP> and the 
Administrator of the Environmental Protection Agency (EPA). Reportedly, 
these secretaries acted as associate members, with the Director of the 
Bureau of Budget (now Office of Management and Budget) and the Attorney 
General participating as observers. <SUP>20</SUP> The 1965 Act also 
created numerous River Basin Commissions which were charged with 
planning for water resources development on a watershed scale. The 
Council was specifically tasked with: 1) maintaining and preparing a 
biennial assessment of water supply and demand; 2) devising new 
principles, standards, and procedures for project evaluation; 3) 
establishing and maintaining liaison with River Basin Commissions 
established under the Act; 4) administering planning grants to states; 
and 5) effectuating interagency policy coordination in part by 
encouraging and reviewing river basin plans (<l-arrow>102(b)). The 
authorization for the WRC still exists (42 USC 1962a); however, the 
institution has not been funded since 1983.
---------------------------------------------------------------------------
    \19\ One source (see Infra 20, p. 399) notes the Secretary of 
Transportation became a statutory member of the Council in 1967 for 
``matters pertaining to navigation features of water resource 
projects;'' however, U.S. Code notes state the Secretary of 
Transportation was added in 1975 (42 USC 1962a, amendments of P.L. 94-
112).
    \20\ National Water Commission. Water Policies for the Future. 
Final report to the President and to the Congress of the United States. 
(Washington DC, U.S. Govt. Printing Office: 1973), p. 399.
---------------------------------------------------------------------------
    The first WRC national water assessment was transmitted to Congress 
by President Lyndon B. Johnson on November 12, 1968. Its major emphasis 
was to provide ``initial assessments of the adequacy of the Nation's 
water supply based on readily available data and limited analyses. 
<SUP>21</SUP> The report used the base year of 1965 for a 50-year time 
horizon for analyzing emerging problems in water resources development. 
Its findings necessarily reflected the data available at the time. The 
second WRC national water assessment was issued December 1978. 
<SUP>22</SUP> Its major findings reflected the first nationally 
consistent water use and supply projections for geographical regions, 
with the data indicating a need for better management to balance water 
quantity and quality. While the national assessments primarily 
addressed water availability, use, and trends and were rather data 
intensive, an intervening effort by the National Water Commission 
focused on water policy and resulted in 62 additional water policy and 
technical studies. <SUP>23</SUP> Perhaps the most lasting effect of the 
WRC activities was the publication and subsequent revision of 
principles and standards, or principles and guidelines (P&Gs) for the 
evaluation of water resource projects, which are still used by Federal 
water resource agencies for project planning and evaluation.
---------------------------------------------------------------------------
    \21\ Water Resources Council. The Nation's Water Resources, The 
First National Assessment of the Water Resources Council. (Washington 
DC, U.S. Govt. Printing Office: 1968), p. 2-1. (Emphasis added.)
    \22\ Water Resources Council. The Nation's Water Resources, 1975-
2000, The Second National Water Assessment by the U.S. Water Resources 
Council. (Washington, DC, U.S. Govt. Printing Office: 1978.)
    \23\ Supra note 20, p. 579.
---------------------------------------------------------------------------
National Water Commission
    The National Water Commission (NWC) was established by P.L. 90-515 
(82 Stat. 868) on September 26, 1968 (S. 20, 90th Congress). The NWC 
was a seven-man commission appointed by the President; its membership 
excluded officers or employees of the United States Government. The 
genesis of the NWC lay in deliberations over the passage of the Central 
Arizona Project and competing proposals for extensive development of 
the Colorado River Basin, including potential importation of water from 
the Columbia River Basin. <SUP>24</SUP> The rationale for the NWC was 
to give a national perspective to the many serious long-range water 
problems brewing in many parts of the country. The 1973 report of the 
NWC included numerous conclusions and recommendations ranging from 
tightening Federal (both executive and legislative branch) evaluation 
and cost-share procedures and policies for water resource projects 
(including navigation) to substantial revision of the Nation's water 
pollution control policy. With respect to future water projects, the 
report noted that water use is inherently ``responsive to many 
variables in policy and technology as well as to rates of growth in the 
population and the economy which cannot be forecast with an assurance. 
<SUP>25</SUP> Regarding M&I supplies, the NWC recommended that a 
national policy be developed and enacted into law to clearly delineate 
the Federal Government's role in the provision of water for M&I uses 
and that such responsibility should remain with non-Federal public and 
private entities. While the report was issued during the end of the 
Nixon Administration and appeared lost among other national priorities 
of the time, it appears that many of the reports' recommendations were 
eventually adopted via changes in Federal water pollution laws and 
regulations and laid the foundation for on-going changes in water 
resource project evaluation criteria, cost-share formulas, and pricing 
policies implemented during the 1980s.
---------------------------------------------------------------------------
    \24\ Ibid., p. ix. See also, Helen Ingram, Water Politics, 
Continuity and Change. (Albuquerque, University of New Mexico Press: 
1990), p. 60.
    \25\ Ibid. p. 17.
---------------------------------------------------------------------------
National Council on Public Works Improvement
    In 1988, the National Council on Public Works Improvement issued a 
report on America's public works. <SUP>26</SUP> The Council was 
established to assess the state of the country's infrastructure. The 
report was preceded by several sector-specific reports including 
reports on water supply, wastewater, and water resource issues, all 
published in May of 1987. The reports noted the growing state and local 
responsibility for a variety of water resource and water supply 
infrastructure and concluded in part that there was not an 
``infrastructure gap'' requiring a Federal subsidy. However, the 
reports did identify an increased need for technical assistance and 
education, especially for small water systems and rural areas. While 
infrastructure-funding gaps have been identified, <SUP>27</SUP> it has 
generally remained the Federal policy that supplying water to 
individual communities is largely a local responsibility, supported by 
Federal funding via grants and loans. These funds have largely been 
provided to assist in meeting treatment needs, consistent with national 
public health and environmental standards, not for meeting supply or 
resource needs.
---------------------------------------------------------------------------
    \26\ National Council on Public Works Improvement. Fragile 
Foundations: A Report on America's Public Works. Final Report to the 
President and the Congress. (Washington DC, U.S. Govt. Printing Office: 
1988). 226 p.
    \27\ The national debate about Federal policy in these areas has 
been augmented for some time by several reports and recommendations of 
numerous private sector advocates and organizations seeking changes in 
policy, in the roles of government and others in implementing Federal 
policy, and in Federal investment in water infrastructure.
---------------------------------------------------------------------------
Western Water Policy Advisory Review Commission
    Congressional debate over western water policy during drought years 
of the early 1990s led to creation of the Western Water Policy Review 
Advisory Commission. Authorized in 1992 by title 30 of P.L. 102-575, 
the Commission completed its review of western water policy issues in 
1998. The report recommended a new governance structure for watersheds 
and river basins as well as several other reforms of existing Federal 
water policies and statutes. It specifically listed 10 ``Principles of 
Water Management for the 21st Century.'' These ranged from promoting 
``sustainable use'' of water to promoting social equity and employing 
participatory decision-making. The report's conclusions and 
recommendations were very controversial and criticized by several ex-
officio (congressional) members of the Commission, including the then-
chairmen of the Senate Appropriations and Senate Energy and Natural 
Resources Committees, and the then-chairman of the House Resources 
Committee.
Other Efforts
    Many other studies, white papers, reports, and books have been 
written identifying problems and policy inconsistencies at the Federal 
level; however, there has been no systematic review of nation-wide 
Federal water policy since the 1973 NWC report. Similarly, there has 
been no formal water assessment of the Nation's water resources since 
the 1978 WRC national water assessment, although the United States 
Geological Survey (USGS) is preparing a report describing the scope and 
magnitude of efforts needed to provide periodic assessments of the 
status and trends in the availability and use of freshwater resources. 
In this same vein, Title IV of S. 1961, the Water Investment Act of 
2002, would direct the Secretary of the Interior, acting through the 
USGS, to periodically assess the state of water resources in the United 
States. In contrast, H.R. 3561 would establish a Twenty-First Century 
Water Policy Commission to study all aspects of water management and 
develop recommendations for a comprehensive national water policy.

                               Conclusion

    Two centuries of project development and environmental and resource 
management activities have created a complex web of Federal and state 
laws and regulations, contractual obligations, and economies based on 
existing water resources infrastructure. While many experts and some 
states have called for better coordination of Federal water policy 
activities, no comprehensive change in Federal water resources 
management has occurred since enactment of the Water Resources Planning 
Act in 1965 (P.L. 89-80, 42 USC 1962 et seq.) Instead, changes have 
occurred incrementally, agency by agency, statute by statute. Where 
coordination of Federal activity has occurred, it has been driven 
largely by pending crises, such as potential threatened or endangered 
species listings, droughts and floods, and by local or regional 
initiatives. New water supply, treatment, and re-use activities of 
traditional multi-purpose water resource agencies such as the Bureau 
and the Corps, combined with calls for an increased Federal investment 
in wastewater treatment and drinking water infrastructure, and 
widespread drought in many areas of the country, are again raising 
questions related to the future Federal role in water supply 
development and management and how such a role ought to be coordinated.
                                 ______
                                 

    [Attachments to Ms. Cody's statement follow:]
    [GRAPHIC] [TIFF OMITTED] 79751.005
    
    [GRAPHIC] [TIFF OMITTED] 79751.006
    
    [GRAPHIC] [TIFF OMITTED] 79751.007
    
    [GRAPHIC] [TIFF OMITTED] 79751.008
    
    [GRAPHIC] [TIFF OMITTED] 79751.009
    
    [GRAPHIC] [TIFF OMITTED] 79751.010
    
    [GRAPHIC] [TIFF OMITTED] 79751.011
    

    Mr. Calvert. Next, Thomas Donnelly, executive vice 
president, National Water Resources Association. You are 
recognized.

  STATEMENT OF THOMAS F. DONNELLY, EXECUTIVE VICE PRESIDENT, 
              NATIONAL WATER RESOURCES ASSOCIATION

    Mr. Donnelly. Thank you, Mr. Chairman.
    Mr. Chairman and members of the Committee, my name is Tom 
Donnelly, and I am the executive vice president of the National 
Water Resources Association. On behalf of the membership of the 
association, it is my privilege to present testimony on H.R. 
3561.
    My first reaction and, I suspect, the vast majority of our 
members' first reaction upon learning of the introduction of 
H.R. 3561 was, please, not another water commission. We have 
been down this road many times before. In fact, since 1900, 
over 20 national commissions or similar groups have been 
authorized by Congress or the President to study water 
resources. I briefly described the findings of a handful of the 
more recent efforts in my written testimony.
    Characteristics of both the National Water Commission of 
1950, the Second Hoover Commission's Task Force on Water 
Resources and Power, and the National Water Commission included 
membership composed of nationally recognized water resource 
professionals; and, two, conclusions calling for greater local 
authority and financial participation, less Federal 
involvement, and projects and programs which are based on sound 
cost-benefit analysis.
    All of the aforementioned reports and studies advanced the 
public debate on water resources management and development and 
presented valuable recommendations. Unfortunately, very few 
have ever been read and over the years serve only to gather 
more dust. That brings me to the most recent such report, which 
is atypical of the previously mentioned commission studies that 
neither advanced the public debate nor presented valuable 
recommendations. In fact, it failed to comply with its 
congressional mandate.
    I fear that in this era of controversial and contentious 
issues related to water allocation and future development, the 
Western Water Policy Review Advisory Commission would only 
serve as a prototype for the commission proposed in H.R. 3561. 
Rather than follow its congressional directive, the Western 
Water Policy Review Advisory Commission apparently developed 
its own agenda. This agenda focused not upon successful water 
resources development, but rather ecosystem protection; not 
upon a critique of the effectiveness of existing Federal 
agencies and programs, but rather the creation of yet a new 
bureaucratic government structure with a basin commission at 
its head; not upon means to meet ever-increasing consumptive 
water demands at the local level, but rather social and 
economic decisionmaking which may leave demands unfulfilled. In 
short, the Commission failed to produce a useful work product.
    The search for a national water resources policy is akin to 
searching for the mythical El Dorado. Hydrologically we are not 
a homogenous Nation; therefore, it is unlikely that 
comprehensive national policy is possible or desirable. The 
Clean Water Act is arguably the most successful environmental 
statute ever enacted, yet some of its one-size-fits-all water 
quality regulations promulgated under the act are nonsensical 
when applied to ephemeral streams and rivers in the western 
United States. There are other examples too numerous to detail 
here of the Federal Government's cookie-cutter approach to 
water policy.
    The membership of the National Water Resources Association 
cannot support H.R. 3561 as written, and it is unlikely that we 
would support the idea of yet another water commission in any 
form. We see little likelihood that the ultimate 
recommendations would add anything new to the body of knowledge 
on water resources management and development or national 
policy. Having said that, let me say that having heard Mr. 
Linder today and the flexibility that he has expressed in 
formulating the Commission, we would take another look at that 
if the Commission was well-focused, was made up of water 
experts--recognized water experts nationally, that I envision 
we could support such a Commission.
    Mr. Calvert. I thank the gentleman.
    [The prepared statement of Mr. Donnelly follows:]

  Statement of Thomas F. Donnelly, Executive Vice President, National 
                      Water Resources Association

    Mr. Chairman, members of the Committee, my name is Thomas F. 
Donnelly and I am the Executive Vice President of the National Water 
Resources Association. On behalf of the membership of the Association, 
it is my privilege to present testimony on H.R. 3561, a bill to 
establish the Twenty-First Century Water Policy Commission.
    The National Water Resources Association (NWRA) is a nonprofit 
federation of associations and individuals dedicated to the 
conservation, enhancement, and efficient management of our Nation's 
most precious natural resource, WATER. The NWRA is the oldest and most 
active national association concerned with water resources policy and 
development. Its strength is a reflection of the tremendous 
``grassroots'' participation it has generated on virtually every 
national issue affecting western water conservation, management, and 
development.
    My first reaction, and I suspect a majority of the members of the 
NWRA, upon learning of the introduction of H.R. 3561, was; please, not 
another water policy commission. We have been down this road before 
with mixed results.
    Since 1900, over 20 national commissions or similar groups have 
been authorized by Congress or the President to study water resources. 
A few of the more recent studies worth mentioning are:
National Water Policy Commission--1950
    In the late 1940's, the Engineers Joint Council, made up of members 
of the American Society of Civil Engineers, the American Society of 
Mining and Metallurgical Engineering, the American Society of 
Mechanical Engineers, the American Institute of Electrical Engineers 
and the American Institute of Chemical Engineers, took steps to 
institute the creation of a National Water Policy Commission charged 
with the investigation and reporting upon the several elements 
affecting the orderly and economical development of the water resources 
of the country. The Council expressed their ideas to the Administration 
and on January 3, 1950, President Truman established the President's 
Temporary Water Resources Policy Commission by executive order. In July 
1951, the Commission presented its report to the President. The 
Commission was made up of seven members; however, over eighty (80) 
water professionals participated on nine policy panels on: domestic and 
industrial water supply and pollution; flood control; navigation and 
inland water transportation; irrigation; hydroelectric power; 
recreation, fish and wildlife; water resources information; land 
drainage; and policies and general applicability. The Commission found 
four significant general principles should govern any discussion of 
national water policy. These principles are: ``(1) Local, State and 
private responsibility should be preeminent and be consciously and 
effectively nurtured and extended in water project programming, 
execution and financing; (2) Bookkeeping should be clear and forthright 
and should be based upon full inclusion of all costs and 
reimbursements; (3) Costs should be collected from those benefited 
either directly or in a subsidiary way. General intangible benefits 
should preferably be regarded as a margin of advantage in project 
selection; and (4) Legislative authorizations and policies should be 
uniform for all Federal agencies responsible for water resources 
development.''
    The Commission also found, ``Consideration and control of the 
waters of the United States are in the national interest, but not 
necessarily a function of the Federal Government. On the contrary, that 
which can be done by the individuals should be done by him, and that 
which requires collective action should be done at the lowest 
governmental level practicable.'' The Commission was a little more 
circumspect in their criticism. They essentially blamed politics and 
Congress for the ``haphazard development'' of our nation's water 
resources.
    The Commission's report, ``Principles of a Sound National Water 
Policy'' is a difficult read, but does contain some pearls of wisdom, 
which are valid today.
The Second Hoover Commission (Task Force on Water Resources and 
        Power)--1953
    The Second Hoover Commission was authorized by Congress and signed 
into law on July 10, 1953. The Second Commission was authorized to 
enter the field of policy--that is, to determine not only whether an 
existing function is being performed efficiently, but also whether 
government should perform it at all. One of the subdivisions of the 
Commission was the Task Force on Water Resources and Power. The Task 
Force summarized its ten principal findings as follows:
     (1) LImperative need exists for a clear definition of the role and 
policies of the Federal Government in the framework of a consistent 
national water policy, which will progressively promote conservation, 
and development of this vital natural resource for the Nation as a 
whole, as well as for States and local communities.
     (2) LThe Federal Government has assumed an ever-increasing share 
of responsibility for water resource and power development until it has 
become a dominant factor in enterprises, which should be outside its 
domain, as that domain is defined by the Constitution.
     (3) LThe Federal Government has not given sufficient consideration 
to non-Federal interest, opinion, and participation in planning water 
resources and power projects.
     (4) LThe Federal Government has used water resources and power 
development projects, which should be undertaken exclusively for 
economic purposes, to accomplish indirect social and political ends.
     (5) LThe Federal Government has paid too much of the costs of 
water resource and power development and has required too little of the 
beneficiaries.
     (6) LThe Federal Government has planned, constructed, and paid for 
water resources and power development projects, which are economically 
unsound and hence waste the national wealth.
     (7) LFrom the standpoint of financial return to the Federal 
Government, Federal water resource and power projects which produce, or 
could produce, revenues are not operated according to sound business 
principles, and do not produce a return fairly related to their value; 
nor does the Federal Government uniformly require adequate 
contributions, either for the use of its money for capital outlay or 
for operation and maintenance costs.
     (8) LThe Federal Government's organization for carrying out its 
policies on water resources and power development lacks coordination, 
fosters competition among its agencies, causes controversy, confusion, 
duplication, and waste, and encourages, rather that curbs, bureaucratic 
ambitions.
     (9) LThe executive branch of the Federal Government has no 
effective means or procedures for accomplishing and independent and 
objective review of water resource and power projects proposed by its 
agencies.
    (10) LThe Federal Government has not provided adequately for the 
collection and analysis of basic data, which should determine the 
physical feasibility of water resource and power projects, and has 
undertaken projects based on inadequate data.
    The Task Force concluded that the first objective of any ``National 
Policy'' should be a consistent Federal policy for water resources 
development that lessens the centralization of authority in the Federal 
Government and strengthens local authority and participation. The 
second objective should be the consistent application of sound 
principles and criteria to determining which projects would increase 
the national wealth and whether or not State and local interests are 
willing to shoulder financial and administrative responsibility 
commensurate with the benefits they receive.
    Characteristics of both the National Water Commission of 1950, the 
Second Hoover Commission's Task Force on Water Resources and Power and 
the National Water Commission (outlined below) included: (1) membership 
composed of nationally recognized water resources professionals, and 
(2) conclusions calling for greater local authority and financial 
participation, less Federal involvement, and projects and programs 
which are based on sound cost-benefit analysis.
The National Water Resources Council--1965
    The Water Resources Planning Act of 1965 established a cabinet-
level Water Resources Council to study, coordinate and review water and 
related land resources requirements, policies and plans, and authorized 
funding for states to plan and implement related programs.
    The Act established the Water Resources Council, composed of the 
Secretaries of the Interior, Agriculture, Army, Commerce, Housing and 
Urban Development, Transportation, and Energy, and the Administrator of 
the Environmental Protection Agency. The Council was required to study 
continually and assess biennially the adequacy of water supplies in 
each water resource region in the U.S. and the national interest in 
these; study continually the relation of regional or river basin plans 
to the requirements of larger regions, and the adequacy of 
administrative and statutory means for coordinating Federal water and 
related land resources policies and programs. The Council was also 
charged with assessing the adequacy of existing and proposed policies 
and programs to meet water requirements and make recommendations to the 
President.
    In addition, the Act required the Council to establish principles, 
standards and procedures for Federal participants in preparing 
comprehensive regional or river basin plans and for formulating and 
evaluating Federal water and related land resources projects.
    In theory it was a meritorious concept, in practice an abject 
failure. It was a bureaucratic nightmare, which imposed a overbearing 
Federal presence and meddling in local and regional water resources 
planning and decision-making. Mercifully, President Ronald Reagan put 
the Council out of its misery upon taking office in 1981
National Water Commission--1968
    Public Law 90-515 signed on September 26, 1968 established the 
National Water Commission. The Commission was tasked with providing the 
President and Congress with water policy recommendations ``for the 
efficient, equitable and environmentally responsible management of its 
water resources.'' The final report, Water Policies for the Future, was 
presented on June 14, 1973, almost five years after its establishment.
    The Commission consisted of seven members and from 19 to 44 staff 
members. The Commission approved a program of background studies 
covering 22 fields of interest related to water policy. The final 
report included seventeen chapters focusing on various aspects of water 
resources policy and develop and presented almost a hundred conclusions 
and recommendations.
    For the most part it was a scholarly thought-provoking report. 
Where it attempted to address controversial aspects of water resources 
policy, such as; acreage limitation, cost sharing and water rights it 
was soundly criticized and discredited by many policy makers in 
Washington and elsewhere.
    All of the aforementioned reports and studies advanced the public 
debate on water resources management and development and presented 
valuable recommendations. Unfortunately, few were ever read and over 
the years have served only to gather more dust.
    That brings me to the most recent such report which is atypical of 
the previously mentioned commission studies in that it neither advanced 
the public debate nor presented valuable recommendations. In fact, it 
failed to comply with its Congressional mandate.
Western Water Policy Review Advisory Commission--1992
    Pursuant to Title XXX of P.L. 102-575, Congress directed the 
President to undertake a comprehensive review of Federal activities in 
the nineteen Western States affecting the allocation and use of water 
resources, and to submit a report of findings to the President and 
Congress. From the very beginning it was an agenda-driven political 
beast. On his last day in office President George W. Bush appointed the 
Commission's members. Subsequent to its organizational meeting, 
President Clinton revoked the appointments of the Commission members 
and not until September 15, 1995 were the twenty-two members appointed 
and the Commission chartered by the Secretary of the Interior. It was 
then necessary for Congress to extend the Commission's final report due 
date to October 2, 1997.
    In December 1997, the National Water Resources Association provided 
comments on the draft final report to the Commission. In the 
Association's opinion, the most significant single flaw in the draft 
report was its failure to follow the Congressional charge to the 
Commission. The Commission was directed to ``[a] review problems 
affecting water resources development in the West; [b] assess current 
Federal programs with an eye towards reorganization or consolidation; 
[c] consider the water-related problems of rural communities; [d] 
review the need for additional storage or other supply enhancement 
alternatives; [e] review the effectiveness of existing institutional 
arrangements in addressing water issues; [f] examine the existing legal 
regime, including those laws governing Federal/state relations; and [g] 
review the activities, authorities and responsibilities of the various 
Federal agencies.''
    Rather than follow this Congressional directive, the Commission 
apparently developed its own agenda. This agenda focused not upon 
successful water resources development, but rather ecosystem 
protection; not upon a critique of the effectiveness of existing 
Federal agencies and programs, but rather the creation of yet a new 
bureaucratic ``governance structure'' with a basin commission at its 
head; not upon means to meet ever increasing consumptive water demands 
at the local level, but rather social and economic decision-making 
which may leave demands unfulfilled. In short, the Commission failed to 
produce a useful work product.
    As far as recent water policy commissions are concerned, this is a 
brief summary of the good, the bad, and the ugly.
    The search for a national water policy is akin to searching for the 
mythical El Dorado. Hydrologically we are not a homogeneous nation; 
therefore, it is unlikely that a comprehensive national policy is 
possible or desirable.
    The Clean Water Act is arguably the most successful environmental 
statute ever enacted; yet, some of the ``one size fits all'' water 
quality regulations promulgated under the Act are nonsensical when 
applied to ephemeral streams and rivers in the arid West. In Alaska, 
the tiny town of Skagway is required to provide tertiary treatment of 
its sewerage even though the small volume is discharged into an 800 
foot deep receiving body with an average 30-foot diurnal tidal 
fluctuation in the north Pacific Ocean. There are other examples too 
numerous to detail here.
H.R. 3561--a bill to establish the Twenty-First Century Water Policy 
        Commission
    The membership of the National Water Resources Association cannot 
support H.R. 3561 as written and it is unlikely that we would support 
the idea of yet another water policy commission in any form. We see 
little likelihood that the ultimate recommendations would add anything 
new to the body of knowledge on water resources management and 
development or national policy.
    In the West, water infrastructure is every bit as important as 
transportation infrastructure. It is essential to the continued 
economic growth and development of the region. Water infrastructure 
needs continue to exist, particularly, rural water supply. However, on 
the whole, they are quite different from those of the past. No one 
envisions a future infrastructure development program and financing 
arrangements like the Reclamation program, which facilitated the 
development and unprecedented economic growth of the West during much 
of this century. Future projects are more likely to include non-
structural features, environmental enhancement, proven best management 
practices, innovative approaches to water quality/quantity concerns and 
greater levels of non-Federal financing.
    A better use of the money that would be dedicated to the Commission 
called for in H.R. 3561 would be to conduct a comprehensive national 
water resources needs assessment.
    An essential element, which is currently missing from the Federal 
planning equation, is a basin-by-basin infrastructure and programmatic 
needs assessment. Such an assessment cannot be developed without the 
active involvement and, perhaps, leadership of the nation's governors, 
water resources professionals, and state and local officials.
    In addition, several Federal agency projects have been authorized 
by the Congress but remain unfunded. These projects should be reviewed 
to determine if they still meet the needs they were authorized to 
address. These projects should be prioritized on a state and regional 
(watershed) basis and Congress should determine what project benefits 
are in the Federal interest for funding purposes.
    I thank the Chairman and the Committee for this opportunity to 
present NWRA's thoughts and concerns regarding this legislation and we 
wish to continue to work with the Committee as they review and develop 
water policy for the nation.
                                 ______
                                 
    Mr. Calvert. And Mr. Lynch?

STATEMENT OF ROBERT S. LYNCH, ATTORNEY AT LAW, PHOENIX, ARIZONA

    Mr. Lynch. Thank you, Mr. Chairman and members of the 
Subcommittee. My name is Bob Lynch. I am an attorney in 
Phoenix, Arizona, and I have practiced law for about 38 years 
now, 3 years in the Marine Corps, 5 at the Justice Department 
doing litigation on these issues, and 30 years in private 
practice. And I have some prepared remarks which I would ask be 
made part of the record.
    Mr. Calvert. Without objection. It will be put in the 
record.
    Mr. Lynch. I hope in my testimony to provide you some 
observations from my service on the Water Rights Task Force. 
Remember that Assistant Secretary Bennett Raley chaired that 
effort. Speaking of efforts that got ignored, the Forest 
Service was the focus--was the initial focus of that inquiry, 
and to the best of my knowledge to this day still doesn't 
recognize the suggestions that we made in that report 5 years 
ago.
    I am pleased that Mr. Linder recognizes the need to declare 
the primacy of the States in this legislation. I hope Mr. Keys 
gets his legal advice from Mr. Raley about how to express that 
and how to acknowledge the sanctity of our interstate compacts, 
especially on the Colorado River, and the sanctity of our State 
laws as we try not only to allocate, but administer our water 
laws.
    This bill focuses, unlike the drought bills that I cited in 
my testimony, on the supply side of the water issue, and I 
think that is a good thing because there has been very little 
attention given to supply side strategies and a great deal of 
attention on how to manage demand in times of shortage, in 
times of drought. But I believe that the thing that is going to 
be most important if this Commission goes forward is that it 
study barriers.
    We spent decades building up our water supply both before 
and after World War II, and then beginning about the time I 
joined the Justice Department, Congress began legislating 
barriers. I was there when President Nixon signed the National 
Environmental Policy Act. I handled the first case. It happened 
to be a water case involving the Corps of Engineers in my own 
State. That project was never built, and the flood control 
benefits of that project were never achieved. We have those 
barriers today, and we had a big fight a couple of years ago 
over Lake Mead when it was drawn down in a prior drought, and 
some nonnative vegetation managed to creep into the lake, and 
some endangered birds were in it, and we had ourselves a nice 
fight in Federal Court. Because 20 million people drink that 
water, there have to be limits on what we do, and we found some 
other ways to take care of this endangered bird.
    We have that fight today in Phoenix. Lake Roosevelt, the 
largest water supply in central Arizona for 3-1/2 million 
people, has the exact same problem facing it now as Lake Mead 
did a couple of years ago. We have that problem on the Colorado 
River, as the Chairman is well aware. And in order to find 
strategies for endangered species, we have to find water. Well, 
that water is all being used, and so we have a problem.
    And I would hope that you would consider some changes to 
the makeup of this Commission. Frankly, as an attorney in 
private practice, I am always nervous when government is coming 
to help us. It is sort of like getting reports from the 
generals in the middle of the war rather than from the war 
correspondents, and I would much more trust a group of outside 
observers looking at what government can and cannot do in 
examining how to address these barriers than having a top down, 
we are coming to get you--excuse me, we are coming to help you 
approach.
    And last I would note that the drought study that you 
received in the year 2000, I believe that is the genesis of the 
two bills that were introduced last week, very plainly says 
there is no way to set national policy. Our water is local, our 
water politics is local, and all water rights are local. And if 
you go forward with this, I hope that those of us who are local 
can find a place to contribute.
    [The prepared statement of Mr. Lynch follows:]

Statement of Robert S. Lynch, Appointed Member of the Water Rights Task 
                                 Force

    Mr. Chairman and Members of the Subcommittee, my name is Bob Lynch. 
I am an attorney in Phoenix, Arizona. I have worked in the areas of 
water supply, water rights and water policy at the Justice Department 
and in private practice for nearly 35 years. I had the pleasure of 
serving on the Federal Water Rights Task Force, a Federal advisory 
committee established by the Federal Agriculture Improvement and Reform 
Act, P.L. 104-127. I was appointed in June 1996 to this seven-member 
committee by then Speaker of the House Newt Gingrich. The committee was 
chaired by Bennett Raley, now Assistant Secretary of the Interior for 
Water and Science. While your kind invitation does not specifically 
address the issue, I presume that I have been invited to testify at 
this hearing on H.R. 3561 because of my experience of having served on 
the most recent national water study that Congress directed. It is my 
pleasure to do so.
    I would like to divide my testimony into three parts. First, I 
would like to briefly discuss with you the current drought situation 
that faces my state and my basin, the Colorado River Basin. I have read 
in the papers even as late as the end of last week about drought in the 
East and other parts of the country, so I believe sharing with you some 
of the developments in Arizona may be relevant to the purposes of this 
legislation. Second, I would like to talk to you about the mechanisms 
that H.R. 3561 proposes to use to address the mission of the body to be 
created by this legislation. Third, I would like to address the mission 
itself.
THE DROUGHT
    A colleague of mine is fond of saying ``drought, it's not just for 
the West anymore.'' If I can believe what I read in the papers, that is 
certainly true, in spite of recent rainstorms. The problem with drought 
is that, when it goes away, people forget it happened. But droughts 
will return. We know. We are in one again. Flagstaff, Arizona, near the 
Grand Canyon, has started water rationing. The drought has allowed 
wildfires to start months before our regular fire season. Homes burned 
down near Prescott, Arizona last week. Wildfires started so early this 
year that the agencies didn't have contracts completed for the slurry 
planes or the fire crews.
    Last Friday, Secretary of Agriculture Ann Veneman was in Phoenix to 
meet with Arizona Governor Hull. The Secretary announced, at a press 
conference, drought relief from the Agriculture Department in 
recognition of the dry conditions and the significant impacts they are 
already causing even before our summer really begins. A copy of her 
letter is attached to this testimony.
    Our entire basin is suffering. Snowpack as of May 1 in the Upper 
Colorado River Basin, where most of the snow collects, is an abysmal 
30% of average. Indeed, a fish ladder for endangered fish on the 
Gunnison River in Colorado, a tributary to the Colorado River, had to 
be taken out of operation because of the lack of water in the river. 
And the Geological Survey is saying that this might be the front end of 
a 20-30 year cycle, at least in our basin. By contrast, there 
apparently is significant flooding in some Midwestern states from 
recent storms. Nevertheless, from what I have read, the recent rains in 
the Northeast still leave that area of the country short of water.
    We need to remember that drought and floods are the opposite sides 
of the same coin and the coin is engraved ``we are not yet in control 
of our water supply.'' There are a number of reasons why, and I will 
discuss some of them in the third part of my testimony, but suffice it 
to say that we have a serious problem.
ALTER THE STRUCTURE OF THE STUDY
    H.R. 3561 would create a study committee of 17 members appointed by 
the President who will be handed a large mission to be accomplished in 
12 months. This just will not work. I have attached a matrix to my 
testimony showing the makeup of various water studies over the last 40 
years and the timeframes they were allotted. Speaking from personal 
experience, I can tell you that the mechanisms proposed in this 
legislation will seriously inhibit its chance of success.
    First, there are too many people. We were a 7-member Federal 
advisory committee which met a dozen times in a year and took public 
testimony at most of those meetings, including a hearing in the United 
States Senate. Coordinating the schedules and demands of 7 people in 
order to get a report to Congress somewhere close to the allotted time 
was a nightmare. If you decide to study this subject, use a smaller 
group.
    Whatever size group you use, don't have the study dominated or even 
populated by agencies. Regardless of whether you're talking about a 
Federal, state or local government entity, the natural tendency of 
public officials is to guard turf, expand turf where possible, and 
otherwise compete with sister agencies for attention. This same 
construct works at the state and local government level as well. If you 
want an honest read about the problem in a reasonable period of time, I 
would recommend using the 5 non-Federal representatives called for in 
H.R. 3561 but pick them from outside government. And don't pick people 
on the basis of their affiliation with a specific organization. Pick 
people on the basis of what they know and whether they have a 
reputation for good judgment.
    Whether the President appoints a study group, if you decide to move 
forward with this legislation, or someone else does or several do, as 
with the advisory committee on which I served, do not require 
appointments in 30 days. That was supposed to happen with us and it 
didn't happen. There is just too much to do and too many other things 
to occupy attention. I would suggest that an appointment timeframe be 
somewhere between 60 and 90 days.
    The larger the assignment you hand a group like this, the more time 
you must give them to address it. A one-year timeframe for the subjects 
covered in H.R. 3561 is just too short. You have to choose between 
narrowing the mission or lengthening the time or do some of each in 
order to come up with a construct that can produce something 
worthwhile.
    Designate the support mechanism for any study group that you 
create. What agency is going to staff this effort? Where is the money 
going to come from?
    As I read the provisions of the bill, they seem to conflict with 
the Federal Advisory Committee Act. If the study is to go forward, that 
problem must be remedied.
    If the timeframe turns out to be more than one year, ask for annual 
interim reports and designate specifically the information you expect 
to receive. Hold their feet to the fire.
    Require a minimum number of hearings for the period of time 
allotted and require that at least a certain number of them be held in 
different regions of the country. All water problems are local, 
virtually all state water laws are different in at least some respects 
and water politics are varied and often situational.
    Direct Federal agencies to respond promptly, i.e., within 30 days, 
to any information request from the study group. Condition submission 
of testimony, data and materials from non-Federal interests on 
cooperation with the study group in terms of information requests.
    In short, use action-forcing mechanisms like these I've suggested 
to ensure that the group has a chance of succeeding.
NARROW THE MISSION
    H.R. 3561 outlines an impressive mission. A study group could take 
10 years and not be able to get its arms around all aspects of water 
management.
    More importantly, in my view, do not demand that the group 
recommend a comprehensive (national) water policy. I have been 
personally involved in reports that have been produced on this subject 
since the late 1960's and I firmly believe there is no way to have a 
comprehensive national water policy. Indeed, there is really no need to 
attempt to homogenize the subject of water supply, water quantity or 
water rights.
    The bill does define the critical point, however. The problem is 
not the lack of a comprehensive national water policy. The problem is 
the barriers to problem-solving that Congress has raised from time to 
time.
    Most, but not all, of these barriers are created by environmental 
laws. Some are merely created by lack of Congressional attention. 
Environmental laws such as the Endangered Species Act and the Clean 
Water Act not only raise barriers to existing water uses; they provide 
barriers to expanded conservation of water resources.
    EPA has a construct known as a ``zero discharge limitation''. That 
means that water that is contaminated is required to be evaporated. 
Thus, this environmental regulation fights water conservation.
    When Bill Ruckleshaus became Administrator of EPA, he was fond of 
saying that ``dilution is not the solution to pollution''. How times 
have changed. Now EPA is proposing a water quality trading policy that 
would, as a practical matter, allow dilution to be the solution to 
pollution. Water Quality Trading Policy, Proposed Policy, 67 Fed.Reg. 
34709-10 (May 15, 2002). It may work. It will also require more water. 
The EPA white paper is suggesting that problems in the Gulf of Mexico 
and other places could be solved by throwing more water at the problem. 
How that will work in a drought is anybody's guess.
    The materials circulated with H.R. 3561 mention a number of new 
technologies that could be employed. Some of them, like aquifer 
recharge, are already happening in places like Arizona and southern 
California. As you may know, Arizona has the most stringent groundwater 
law in the nation, and as a result, our cities, towns and farmers have 
gotten pretty good at conservation. But conservation of this nature 
doesn't create new water, it just saves water you already had. Finding 
``new'' water will require dusting off some old strategies such as 
cloud seeding and vegetation management as well as promoting existing 
strategies in order to truly be effective.
    One of the other things that could be studied is mandating that the 
Federal regulatory agencies that enforce our environmental laws come up 
with broader solutions. Whether it is EPA under the Clean Water Act or 
the Fish and Wildlife Service under the Endangered Species Act, 
agencies largely focus on compliance with their programs, not problem 
solving. Forcing the agencies to help find solutions while they are 
creating sidebars to water supply efforts should also be considered.
CONCLUSIONS AND RECOMMENDATIONS
    I will not presume to tell you whether Congress should order a 
study of the present or future water supply problems we face. And 
perhaps the drought issue will receive adequate attention in the bills 
just introduced by Senator Domenici (S. 2528) and Congressman Hastings 
(H.R. 4754), and co-sponsored by members of the Arizona delegation. I 
will say that I believe that any study, if it is to be conducted, needs 
to be run by a small group consisting of people outside government who 
are intended to act as a filter for information from government at all 
levels, as well as from non-Federal organizations and individuals from 
the private sector. Give the person or persons who appoint the members 
of the study group adequate time to do so, mandate adequate staff 
support and financing, and give the study a chance to work by giving it 
enough time to do its job. Narrow the mission to something that can be 
achieved in the time allotted and direct the group conducting the study 
to devise specific recommendations, the level at which they would be 
implemented, the need for Federal legislation and the need for Federal 
incentives to motivate state and local governments and private 
organizations. If it were up to me, I would ask the group to focus on a 
study of barriers to better water supply management but that is your 
call. H.R. 3561 focuses attention on a significant issue. I fear, 
however, that, as introduced, the bill's study committee and its 
mission are unrealistically large. If you decide that such a study is 
desirable, I hope you will consider the recommendations I have made in 
this testimony about how to structure the group and the task.
    Thank you for the opportunity to testify on this extraordinarily 
important subject.
                                 ______
                                 

    [Attachments to Mr. Lynch's statement follow:]
    [GRAPHIC] [TIFF OMITTED] 79751.012
    
    [GRAPHIC] [TIFF OMITTED] 79751.013
    
    Mr. Calvert.  I thank the gentleman for his testimony, and 
all the witnesses. I think in Mr. Linder's opening statement--
and I am certain that Mr. Linder will speak for himself--but he 
said that he would be very flexible in working with the 
Commission and with groups that obviously represent water 
interests locally and various States, and that is extremely 
important. And I am sure we will work together to make sure 
that we don't have any unintended consequences of any 
commission that may be set up again to look at water issues in 
this country. But I think it may be appropriate, because, as 
Mr. Lynch pointed out, on the supply side of this problem, we 
have other challenges because of the Endangered Species Act and 
because of other Federal laws that we need to look at. So I 
look forward to working with Mr. Linder.
    Mr. Flake, did you--you wanted to ask anything before you 
left?
    With that, I will recognize Mr. Linder.
    Mr. Linder. I just want to say I brought to this table a 
lot of questions and no firm answers, and I am very flexible 
because I don't know who should be on this Commission. We took 
the shape of another commission and used it as an example, but 
I have gotten some very constructive help from Dr. Vaux. And I 
want you to know that I considered all of your testimony to be 
very constructive, and it is very helpful to hear, and I would 
welcome your input. If you would like to send me a letter 
making some specific recommendations for the bill, I would be 
happy to have that.
    Mr. Osborne. Yes. I can understand some discomfort with 
government intervention and oversight. And in the absence of 
government oversight in terms of water policy, what agencies or 
what alternatives would you suggest? And I guess I particularly 
address that to Mr. Donnelly and Mr. Lynch.
    Mr. Lynch. Mr. Chairman, Mr. Osborne, to the extent the 
Federal Government has identified in a future inquiry a series 
of roles to play--and obviously Congress is going to have to 
facilitate those roles, whatever they may be--I guess the 
point--the central point of my concern is that it is very hard 
for an agency head to be objective about the successes and 
failures of the programs assigned to that agency head, whether 
it is--I mean, Mr. Keys is, in my view, one of the best things 
that has happened in this administration. He is a very capable 
person, but he is also a human being, and he has a program and 
an agency to run, and frankly you could tell from his testimony 
he is pretty proud of it, and he has a right to be. But that is 
not the kind of outside look at this issue that I think retains 
objectivity.
    Now, you can put all these agencies together, and, in my 
view, they will fight turf wars to see who can be the best at 
coming up with the best solution, or you can have an outside 
view. As I said, it is like having the war correspondents 
report about the war, because as you know, whiskey is for 
drinking, and water is for fighting, and we will fight over 
this. And if there is a way to set up a group of people whose 
job it is to inform you and who don't have axes to grind, I 
would suggest that the end product will be more useful and will 
be a more objective analysis of just what the Federal 
Government can and cannot do in addressing these problems.
    Mr. Osborne. Your point is well taken, but if something 
needs to be done, where do we go--either one of you--because 
essentially it is easy to point out the problem, but what is 
the solution? Where do we go for an outside independent arbiter 
in this case?
    Mr. Donnelly. Independent arbiter. Let me back up just a 
little bit, because I think that there is a role for the 
Federal Government in water. There is a role for the State and 
local governments in water resources management and 
development. We in the West--our colleagues in the East, I 
should say, seem to be a little more comfortable with the 
Federal role than we are in the Western States. And water along 
the western United States has developed with the State as the 
key entity as far as allocation and supply. Independent arbiter 
of most disputes has been the court system. You may not agree 
with that, but--
    Mr. Lynch. I don't know if Mr. Donnelly is suggesting we 
turn this over to judges, but I would strongly disagree. Your 
point is very well taken, Mr. Osborne. There is no one who 
deals with water law who knows anything who is totally 
independent. If they are, they are asleep. You do the best job 
you can. I mean, basically on the Water Rights Task Force, the 
Senators that were the prime movers in establishing that just 
went out and ID'd people they thought would take the time, knew 
something, and would give the Congress back an honest read on 
what the problem was and what should be done about it. I don't 
know if we succeeded or not, but we tried.
    Now, I guess what I am trying to say is that there are 
people in the private sector who care about this issue and who 
can devote time to it and can help address the questions about 
what agencies can do certain things and what they can't, and 
where the limitations are, where the conflicts are, where the 
barriers are, and where the duplication is. But I don't see the 
agencies being able to do that. It is kind of intuitive to 
their own purpose for existence.
    Mr. Osborne. My time has expired.
    Mr. Donnelly. A lot of the commissions that have preceded 
this, the Second Hoover Commission's Water Policy Task Force, 
the Presidential commission that President Truman authorized by 
Executive Order, and the National Water Commission in 1968--was 
authorized in 1968 and completed its work in 1973, did some 
excellent work. What we need to is rather than reinvent the 
wheel, let us go back and take a look at what they recommended 
and what works today and what doesn't work today.
    Clearly our country has changed dramatically in the last 30 
years. Our population has grown tremendously. Yet the number of 
water supply structures that have been built, particularly in 
the western United States, are few and far between, and you 
can't expect the demands that are being put on our water supply 
to continue to be met by the systems that were in place in the 
1950's and 1960's. At some point in time we are going to have 
to look at developing additional water supplies. That may be 
through desalinization, which is starting to get to the point 
where it is economically feasible. There are other 
possibilities out there. That is the place to start.
    Mr. Osborne. I yield back my time.
    Mr. Calvert. Thank the gentleman.
    Mr. Hayworth.
    Mr. Hayworth. Chairman Calvert, thank you very much. For 
purposes of full disclosure, to listen to my friend from 
Nebraska and use the term ``independent arbiter,'' at least an 
independent advisor for years since I have been involved in 
public life, has been my good friend Bob Lynch, attorney at 
law, in Phoenix.
    Bob, we welcome you here today.
    I apologize to all panelists for being late, and I thank my 
friend from Georgia for his efforts in this regard. The gist of 
what I am hearing here today in terms of long-term water 
policy, a lot of work has been done, and a lot of work has been 
ignored. And, Mr. Lynch, I am--given the fact that all these 
matters are interrelated, it may seem a bit tangential to ask 
this question, but I need to. Is your impression that the work 
you did in the most recent effort that was delivered to the 
Forest Service, was there hostility toward the product, or was 
there just apathy? Did it just become part of a process and go 
into a gaping hole of information or a repository that was 
never consulted?
    Mr. Lynch. Mr. Hayworth and Mr. Chairman, well, nobody shot 
at me, but I would say to characterize it merely as apathy 
would be incorrect. The Federal liaison to the Federal advisory 
committee blurted out during one of our final sessions, well, 
if we can't take the cattlemen's rights away from them, we will 
not get the cattle out of the forest. And too often agencies 
have agendas, and some of them may lay dormant for years or 
even decades before they surface again.
    I don't know what the current attitude of the senior 
management of the Forest Service is now, but I have to tell 
you, I was here a year ago today in front of this 
Subcommittee--joint hearing with the forest Subcommittee, and 
my testimony then was we have been ignored. To the best of my 
knowledge, we are still being ignored, and ignored by the 
Justice Department in their positions in Federal litigation 
that is going on as we speak in the State of Wyoming and the 
State of Washington.
    I don't know. Hostility to me--I am sorry from my Marine 
Corps background--it means someone is shooting at you. So 
nobody is shooting at me that I know of.
    Mr. Hayworth. Well, to use another infamous phrase from 
previous government service, I guess, uttered by former Senator 
Moynihan in a different role in the Nixon administration, it is 
not benign neglect either. I mean, what you are telling me is 
the essence of your testimony was that in the previous 
administration you may not call it hostility, but there was a 
different philosophy that permeated the mindset of many 
involved that was not interested in information for the common 
good, but to arrive at a foregone conclusion.
    Mr. Lynch. Mr. Chairman, Mr. Hayworth, that is correct. It 
wasn't only the Forest Service, it was also the Department of 
Justice and the positions they were taking in ongoing 
litigation, which I monitored, from Idaho, Colorado, Wyoming, 
Washington, pushing limits of Federal law to assert new 
theories about why Federal Government should control water 
resources in our western basins. And in addition to 
environmental laws, those barriers have existed and may still 
exist.
    Mr. Hayworth. And may be just the challenge of what, I 
guess, political scientists have come to call bureaucratic 
inertia and some of the challenges and personnel involved and 
the outlook there as well.
    Desalinization, Mr. Donnelly. It looks like what was once 
an idea, we are back to the future, and that was an idea that 
had great prevalence years ago, especially in our situation in 
Arizona, and it appears again. You just mentioned it. Is that 
illustrative, or do you think we can head in that direction?
    Mr. Donnelly. I think it was an economic issue more than 
anything. When I first started working in water resources, I 
think the cost for an acrefoot of desal water was about $2,000 
per acrefoot. That is cost-prohibitive almost anywhere. Now I 
am told that the cost is approaching $600 an acrefoot. That is 
starting to get competitive, particularly in southern 
California and areas like that.
    Mr. Hayworth. I thank you, sir, and thank all the panelists 
and my good friend Bob Lynch.
    And, Mr. Chairman, I thank you for your indulgence.
    Mr. Calvert. One last comment. Mr. Linder had to go to 
another appointment. I think you heard from him again about the 
flexibility in working with all of you to fashion this 
Commission. There is no other purpose other than trying to 
improve the water supply in the country and trying to mitigate 
for some of the crises that we have throughout the United 
States today, not just in the West. But I found out since I 
have been Chairman of this Committee we have water problems all 
over the place, so it is a challenge.
    So with that, I thank all of you for your testimony and 
answering our questions and look forward to working with you in 
the future.
    And we are going to now recognize our last panel: Mike 
Kurle, Manager of the West River/Lyman-Jones Rural Water 
System, South Dakota; Frank Means, Councilman of the Oglala 
Sioux Tribe, Chairman, Oglala Sioux Tribe Economic and Business 
Development Committee.

STATEMENT OF MIKE KURLE, MANAGER, WEST RIVER/LYMAN-JONES RURAL 
               WATER SYSTEMS, INC., SOUTH DAKOTA

    Mr. Kurle. Mr. Chairman, members of the Committee, my name 
is Mike Kurle. I am the manager of West River/Lyman-Jones Rural 
Water Systems, and I want to take this opportunity to thank you 
for the opportunity to appear before you.
    We did bring a prop with us to show you the area that the 
Mni Wiconi project covers in South Dakota and give you some 
idea of the immensity of this project. Shown on the map is 
approximately 12,500 square miles that this project covers. It 
takes up a major portion of western South Dakota. I am proud to 
join you and my good friend Mr. Frank Means of the Oglala Sioux 
Tribe in representing the Mni Wiconi sponsors.
    Like the other sponsors, West River/Lyman-Jones is highly 
supportive of H.R. 4638. It will provide the necessary funding 
to complete the project and extend the completion date to 2008.
    Before I turn my remarks to the discussion of the 
infrastructure that H.R. 4638 will provide, I would like to 
underscore the role that this project has played in changing 
the history of western South Dakota and its social fabric. On 
Saturday last we attended the grand opening of the water 
treatment plant. Members of the Oglala, Rosebud and Lower Brule 
Sioux Tribes joined members of West River/Lyman-Jones to 
celebrate the start of the delivery of clean water from the 
Missouri River. One of the Oglala speakers spoke eloquently of 
the time in the late 1980's when Senator Malcolm Wallop held a 
field hearing in the early stages of this project attended 
primarily by non-Indian farmers and ranchers.
    When the Oglalas heard about the project in the hearing, 
the initial reaction was to oppose the project as a violation 
of their 1868 treaty rights. The Oglala in-house counsel at 
that time, Mr. Gonzalez, suggested to the tribal council that 
the Oglalas also had deplorable drinking water situations in 
common with the off-reservation farmers and ranchers, and that 
this project was one in which we could all work together. This 
was a historic event in the area of our diverse cultures. 
Working together had previously been unheard of.
    The relationship has become a model for South Dakota and 
the other Western States. We work extremely well together and 
are bringing a major improvement in the quality of life to this 
region. One aspect of the improvement is drinking water. The 
other aspect is the fact that we have developed a mutual 
understanding and a mutual respect for each other's problems. 
We now appreciate our respective capabilities skills and 
cultural differences, and we are working together rather than 
against each other.
    Let me now turn to what it means to have good water in our 
region. This area of South Dakota has water that even cattle 
will not drink. Most of the rural members of West River/Lyman-
Jones rely on the cattle industry as their No. 1 economic 
business. The project will not only permit them to use water in 
their ranch headquarters, they will also permit as much as a 
30-pound additional weight on the calves due to the quality of 
the water. This would translate to 30 or $40 per calf at 
weaning time, and it is a major economic improvement to South 
Dakota, which supports about 180,000 head of cattle.
    The communities of West River/Lyman-Jones also benefit from 
improved water. The community of Philip, South Dakota, has the 
worst water in the State of South Dakota and was under EPA 
orders to take corrective action. With project funds we have 
been able to construct a distribution system between the 
communities of Wall and Philip, a distance of 35 miles. We will 
deliver water from Wall until we have a completed Oglala core 
line from the Missouri River. At that time, the pipeline we 
have just constructed will deliver Missouri water to both 
Philip and Wall.
    Our communities along Interstate 90 rely on tourism. In the 
past, motorists have taken rest stops for coffee and water east 
of our service area or west because of our reputation for bad 
water. This project is changing that. This fall the communities 
of Reliance, Presho, Vivian, Draper and Murdo, all along 
Interstate 90, will receive either the Oglala or Lower Brule 
water from the Missouri River, and our reputation for good 
water will begin to grow. Tourists will stop, our economy will 
grow, and our children will have employment opportunities in 
their hometown. The amendment to add 58 million to the project 
ceiling is needed to complete valuable components to this 
system that will serve West River/Lyman-Jones and the other 
sponsors.
    In closing, the support of the Committee for H.R. 4638 will 
be greatly appreciated by all of us. Thank you, Mr. Chairman.
    Mr. Calvert. Thank the gentleman.
    Mr. Calvert. Mr. Means, you are recognized.

   STATEMENT OF FRANK MEANS, COUNCILMAN, OGLALA SIOUX TRIBE, 
CHAIRMAN, OGLALA SIOUX TRIBE ECONOMIC AND BUSINESS DEVELOPMENT 
                           COMMITTEE

    Mr. Means. Anpefu Wasbe Hau Kolapi. Good day. Hello, 
friends. My name is Frank Means. I am the chairman of the 
Economic and Business Development Committee of the Tribal 
Council of the Oglala Sioux Tribe. I am representing John 
Steele and the membership of my tribe. President Steele has 
filed a formal written statement for the record that was 
developed in cooperation with all sponsors. I am joining with 
Mr. Mike Kurle, manager of West River/Lyman-Jones, to represent 
the Mni Wiconi project sponsors. Those sponsors are the Oglala 
Sioux Tribe, West River/Lyman-Jones, Rosebud Sioux Tribe, and 
Lower Brule Sioux Tribe. The latter two sponsors have 
contributed to the written testimony filed with the 
Subcommittee and have joined us in the audience for this 
hearing.
    I thank the Chairman and the Subcommittee for giving this 
matter attention and providing the opportunity for this 
hearing.
    H.R. 4638 is an extremely important bill for the Mni Wiconi 
project. It adds $58.8 million to the project construction 
ceiling, bringing the Federal share to 391 million. It also 
extends the project completion date from 2003 to 2008.
    I would like to bring to the Subcommittee's attention some 
of the important points in the written testimony. First you 
should know that this project has brought the Lakota people 
together in western South Dakota together with non-Indian 
farmers and ranchers in an endeavor for the common good of our 
respective people. This is the most significant step toward a 
better understanding amongst us since 1889. This was when the 
Great Sioux Reservation created by the Treaty of 1868 was 
divided into smaller reservations to make room for non-Indian 
settlers. The Lakota leaders and membership have gained respect 
for the people served by the West River/Lyman-Jones, and we 
feel they have gained respect for our capabilities and desire 
to improve the quality of life in this part of South Dakota. I 
thank Mr. Kurle for his efforts in this respect.
    The Subcommittee should also know that improvement in the 
quality of life on Pine Ridge and other reservations of the 
project is a necessity. On my reservation the per capita income 
is the lowest in the Nation, less than $4,000 annually. A large 
majority of the population falls below poverty level. This 
poverty is reflected in the quality of our infrastructure and 
opportunity for future economic development. Opportunities are 
limited or nonexistent. This project is one of several building 
blocks that must be placed before people can progress. It is an 
essential building block.
    In this building, in this city and across the Nation, most 
can take for granted the availability of good water. This was 
not the case on Pine Ridge until this project began and will 
not be the case on Pine Ridge until this project is completed. 
I can show you that most housing on Pine Ridge is well below 
standard. I can also show you plastic containers of all types 
around and inside those homes that are used to haul and store 
water for drinking and cooking and bathing. This project is 
changing that circumstance. Many people can now use the 
plumbing in their homes to deliver safe and clean water.
    The consequences of poverty and the historic absence of 
safe water on Pine Ridge are deep. Water-related diseases have 
been a significant problem, but impetigo, shigellosis, 
hepatitis, gastroenteritis and others are not as prevalent as 
our population is beginning to receive water from the project. 
And there has not been a hepatitis outbreak since the project 
was initiated on the reservation.
    I am deeply concerned about other diseases associated with 
poverty. Our staff has examined mortality rates for heart 
disease, cancer and diabetes. These findings are deplorable. I 
am informed that the discounted future health care costs for 
these three prominent diseases will be .8 to 1.6 billion above 
the cost typical of the population with normal incidence of 
these diseases over the next 50 years. These are extra costs, 
not total costs.
    I relate these findings to inform the Subcommittee that 
while the Mni Wiconi project cannot provide a full answer to 
these diseases and the excessive Federal costs for health care 
associated with these diseases, the Mni Wiconi project is a 
step in the right direction. It will provide an essential 
foundation for improved earnings and employment, which in turn 
will lower the rate of incidence and mortality associated with 
these diseases.
    In closing, the support of the Subcommittee for H.R. 3468 
will be greatly appreciated by all sponsors in this invaluable 
project. Pilamaya. Thank you.
    Mr. Calvert. Thank the gentleman.
    Mr. Calvert. I think this is a good piece of legislation. I 
read through the bill, and I think there is a considerable 
amount of support for it, so I look forward to working with Mr. 
Thune to mark this bill up as soon as possible and report it 
out to the floor.
    And with that, I recognize Mr. Thune.
    Mr. Thune. I appreciate that very much, Mr. Chairman.
    As the gentlemen have noted, this is a critically important 
piece of legislation for South Dakota. The sponsors of this 
project have worked extremely hard over a long period of time. 
It is over 50 percent complete, and I can bear witness to the 
fact, having grown up and lived a good part of my life in 
western South Dakota, the water needs out there for healthy and 
safe and reliable supply of drinking water is critically 
important, and I appreciate your willingness to work with us, 
the conversations that we have had about this previously, and 
your recognition of the importance of this project. And I want 
to thank the gentlemen for being here today and testifying to 
it and giving us an update of where things stand, and to let 
them know that we will work very, very hard to see that the 
authorization makes its way through the Congress so we can 
continue to do the important work that is necessary to get this 
project across the finish line.
    So thank you again for being here, and you, Mr. Chairman, 
for giving us the opportunity to be present to hear this 
testimony this afternoon.
    Mr. Calvert. Again, I want to thank you, Mr. Thune, for 
your leadership in this, and I have a schedule here from my 
staff. I hope we will mark this bill on June 5. We will have it 
hopefully reported to the floor as soon as possible thereafter 
and get this bill completed and made into law, because it is a 
good project. And I want to thank the witnesses for coming out 
long distance from South Dakota, and we wish you well, and we 
are adjourned.
    [Whereupon, at 3:30 p.m., the Subcommittee was adjourned.]

    [Information submitted for the record on H.R. 3561 by 
Michael J. Brophy, Chairman, Western States Water Council 
follows:]

 Statement of Michael J. Brophy, Chairman, Western States Water Council

    My name is Michael Brophy. I am Chairman of the Western States 
Water Council (the Council). The Council is comprised of 
representatives appointed by the governors of eighteen western states. 
The Council has been charged with fostering interstate cooperation in 
water resources and protecting vital state prerogatives with regard to 
the management of water resources in the West. While necessarily 
expressing personal views in my testimony, I will rely heavily on 
positions of the Western States Water Council consistent with the 
request by the Subcommittee. To this written testimony, I will also 
append for the record positions of the Council for your reference.
    The Subcommittee has invited testimony and statements regarding 
H.R. 3561, the 21st Century Water Policy Commission Establishment 
Act.'' I need to state in preface that the Council has no position 
regarding this bill. However, this statement is provided to convey 
matters pertinent to Congressional consideration of this bill. I 
believe providing such a statement is particularly appropriate, because 
states play the pivotal role in both water quantity allocation and 
water quality protection in the West. Further, a recent response to a 
similar commission as that proposed in H.R. 3561, the Western Water 
Policy Review Advisory Commission, provides a context for my remarks.
    I wish to commend the sponsors for their interest in water 
resources and the purpose of the bill to help assure adequate supplies 
for the future. This priority is underscored by the current extent of 
drought in many areas of the Nation. Stream flows in much of the West 
are expected to be well below normal. The bill's aim to better 
coordinate the programs of various Federal agencies regarding water is 
also laudable.
    The Federal Government has claims to substantial amounts of water 
in the West on its own behalf, given the extent of Federal land 
ownership. These claims are most often presented within the context of 
state general stream adjudications, where the water rights of all 
claimants in a given stream system can be ascertained.
    While virtually every western state needs additional supplies to 
meet growing consumptive use demands, western states also recognize the 
need for existing water infrastructure rehabilitation. Further, they 
also recognize as a significant challenge, the need to sustain in 
stream values generally, and specifically for maintaining and enhancing 
water quality, and for protecting endangered species. The West is often 
subject to wide swings in water supply. Thus, states identify drought 
planning and response as a priority problem, and similarly flag flood 
planning and response. Overlaying many of the above challenges are 
legal and institutional conflicts facing western states, involving 
Federal/state relationships, conflicts between states, and disputes 
among water users, among others.
    The Western Water Policy Review Advisory Commission was established 
in 1996 to make recommendations to address these and a broad array of 
related challenges affecting the West. Specifically, the Commission was 
charged by the Congress to prepare a report to the President on 
``Federal activities in the nineteen western states which directly and 
indirectly affect the allocation and use of water resources.'' Given 
this broad mandate and the potential import of the Commission's 
undertaking, the Council spent considerable time in reviewing its work 
products, including its final report.
    The Council found the report's recommendations flawed in several 
respects. I have attached a copy of the official position statement of 
the Council in this regard for the Subcommittee members' reference. The 
``governance recommendations,'' contemplating what we perceived as a 
top down approach to water management, and its recommendations 
pertaining to state water law and institutions, which advocated a 
fundamental change in Federal deference to state water law, are 
specifically addressed in the attached position.
    In the process of working with the Commission, the Council was 
asked by the Commission to provide its perspectives on directives given 
to the Commission; namely, to (1) review present and anticipated water 
resource problems affecting the nineteen western states; (2) review the 
problems of rural communities relating to water supply, potable water 
treatment, and wastewater treatment; (3) review the need and 
opportunities for additional storage or other arrangements to augment 
existing water supplies, including water conservation; (4) examine 
institutional arrangements to address problems of water allocation, 
water quality, planning, flood control, and other aspects of water 
development and use; and (5) review the respective roles of both the 
Federal Government and the states and examine Federal-state relations 
regarding various aspects of water allocation and use.
    I have enclosed a copy of the Executive Summary from the Council's 
report. In summary, the report found that to meet the increasing 
demands for water, several states are considering additional surface 
reservoirs, which, for the most part, will be smaller in scale than the 
large projects of the past, more innovative, environmentally sensitive, 
and financed primarily from state and local resources. The reallocation 
of water from existing uses to other uses will likely accelerate, 
chiefly from agricultural uses to other uses, primarily municipal. 
While states will often facilitate such transfers to meet specific 
water supply and environmental challenges, in some cases they may 
restrain market transfers, not only to protect third parties, but also 
the public interest in general.
    While recognizing the limits of water conservation in providing 
``new'' water and additional caveats relating to the site-specific 
impacts of water conservation measures, states are carefully 
considering opportunities to ``stretch'' existing supplies of water 
through more efficient use, reuse, and reservoir reoperation (prior to 
the development of new storage facilities). States are further 
exploring opportunities to cost-effectively manage ground water 
recharge, recognizing it as a potentially significant storage 
alternative, and some states are further pursuing the potential of 
desalinization and weather modification to augment existing supplies.
    As the emphasis on the importance of water conservation increases, 
states are developing and adopting a number of programs to encourage 
such measures as low water-use landscaping, and water rates that 
encourage conservation in urban areas, and development of conservation 
plans and incentives and leak detection programs in rural/agricultural 
settings. The reuse of wastewater effluent is also increasing. Many 
communities are currently reusing effluent for landscape and 
agricultural irrigation. To facilitate a reallocation of existing uses 
to augment supplies in areas of relative scarcity, some states have 
established water banks, while others have adopted measures to 
streamline the transfer process.
    Western states have made innovations in their laws and institutions 
in order to augment and protect instream flows and to incorporate 
consideration of the public interest in their water right application 
and transfer processes. States are also endeavoring to incorporate 
innovations in their water quality programs, particularly regarding 
non-point source pollution. States have adopted various measures to 
deal with the problem of ground water depletion. States have also 
strengthened their capacity to deal with floods and drought. 
Innovations to improve information on water availability and use are 
common.
    States in the West have recognized and moved to enhance the 
potential value of local watershed coordination initiatives. As 
conflicts over water use intensify in an era of both increasing and 
changing demands, states are also addressing the need to deal more 
effectively with these disputes. For a variety of reasons, states are 
also increasing their emphasis on maintaining and enhancing the 
environment. These reasons include, but are not limited to, Federal 
mandates such as the Endangered Species Act and the Clean Water Act.
    This report thus underscores that states are taking initiatives to 
address the water challenges that we face in this country. In a very 
real way, these state efforts collectively represent a ``national'' 
water strategy. Nevertheless, the Federal Government's role is vital.
    Given the diminishing Federal resources available to carry out the 
requirements of these and other Federal acts, and the concurrent 
increase in the state burden for environmental protection, states urge 
that increased flexibility be given regarding their implementation, so 
that states and others can tailor programs and prioritize resources to 
meet real needs. Streamlining Federal permit processes is also 
important. The Federal Government should encourage innovations, which 
frequently involve market incentives and non-regulatory tools, as they 
have often been found to work more effectively than top-down 
regulation. The Council has, for example, urged flexibility in 
implementing the Total Maximum Daily Load program under the Clean Water 
Act. Further, the Federal Government continues to have an important 
role with regard to disaster response and other mitigation associated 
with droughts and floods. In this regard, there is now a bill before 
the Congress to help the nation more effectively prepare for drought.
    ``The National Drought Preparedness Act of 2002'' was introduced on 
May 16, 2002, by Rep. Hastings (D-FL) and Rehberg (R-MT). The bill 
would establish a comprehensive national policy that statutorily 
authorizes a lead Federal agency for drought, and delineates the roles 
and responsibilities for coordinating and integrating Federal 
assistance for droughts. The bill is intended to move the country away 
from the costly, ad-hoc, response-oriented approach that characterizes 
current Federal drought programs, and moves us instead toward a 
proactive, preparedness approach. This is accomplished through the 
authorization of the drought fund which would be available for the 
development and implementation of drought preparedness plans at all 
levels including the watershed, local, state, tribal and national. The 
drought plans will not be mandated in a top-down manner, but rather 
encouraged through incentives. The bill recognizes the importance of 
allowing flexibility so that plans are developed to address local needs 
and in a manner that is acceptable to the people affected by the plan.
    There is another bill before the Congress which is also important 
to western states. The Congress should address the inequity that now 
results from exempting the Federal Government from paying any filing 
fees or costs associated with state general adjudications. As 
previously mentioned these adjudications establish the relative rights 
of all parties within a water basin, including the considerable number 
of claims by the Federal Government. The Federal Government should not 
be exempt from paying its fair share of fees that provide necessary 
funding to accomplish a purpose which is directly in their interest. I 
have attached the Council's position which explains our support for a 
remedy, now before the Congress in the form of S. 447.
    There is also a significant need for the Federal Government to 
maintain and rehabilitate its existing water storage infrastructure, 
and to work with states and others in providing reliable water data. In 
particular, as Congress considers the budget, we urge it to recognize 
the serious need for adequate and consistent Federal funding to 
maintain, restore, modernize, and provide for targeted expansion of 
NWCC's SNOTEL System and Soil and Climate Analysis Network (SCAN), and 
USGS's Cooperative Stream Gaging Program and National Stream 
Information Program, with a primary focus on coordinated data 
collection and dissemination. I have appended a position recently 
adopted by the Council, together with a letter that was recently sent 
explaining the western states' position in support of these programs.
    Finally, I wish to reiterate the importance of the long-held 
Congressional policy of deference to states regarding water management. 
States are moving to address the challenges they face in water 
resources. Federal preemption of state authority is not the way to 
address the complex challenges associated with water management in the 
West. Rather, what is necessary is encouraging partnerships between the 
state and Federal agencies in the development and implementation of key 
policies, supporting the pivotal role states must play in addressing 
these challenges, and affording flexibility for ongoing innovation at 
the state level in order to effectively carry out this role.
    Thank you.
                                 ______
                                 
             Statement of the Western States Water Council
Introduction
    The Western States Water Council is an organization representing 
eighteen states. Members are appointed by their respective governors to 
address a broad range of water policy issues affecting the West. In 
this context, the Council responded to the recommendations of the 
Western Water Policy Review Advisory Commission (WWPRAC) in a letter 
dated November 14, 1997. The Commission had been charged by the 
Congress to prepare a report to the President on ``Federal activities 
in the nineteen western states which directly and indirectly affect the 
allocation and use of water resources....'' The Council understood the 
difficulty of the task undertaken by the Commission and spent 
considerable time itself in reviewing draft reports and 
recommendations, as well as the Commission's final report. While 
commending the Commission for the time spent and commitment made by the 
Commission and its staff, the Council in its November 1997 letter 
expressed concerns with several of the Commission's recommendations. At 
the beginning of a new Congress and Federal Administration, the Council 
wishes to reiterate the concerns expressed in its earlier letter in the 
form of this position statement.
Governance
    The Council takes issue with the Commission's primary 
recommendations related to ``fundamental changes in institutional 
structure and government process....'' incorporating top-down 
approaches to water management by Federal river basin commissions, 
which have been tried and failed in the past. Such an approach is the 
antithesis of the local bottom-up watershed approaches to identifying 
and solving water-related problems, which have gained favor and 
momentum westwide. The report's overall reliance on Federal action and 
authority contrasts with existing interstate compacts and the growing 
recognition of the pivotal role states must play if we are to 
successfully deal with the complex challenges we face in water 
resources. In order to effectively carry out this role, flexibility and 
innovation at the state level is necessary. This emerging model for 
water governance moves away from Federal mandates and institutional 
structures.
    The final report states an intention to support such local 
initiatives. However, the suggested use of Federal basinwide governance 
pilot projects ignores the success of many innovative state and local 
efforts undertaken without the need for Federal direction or Federal 
leadership, and threatens further successes by the imposition of the 
proposed governance structure.
    Importantly, the final report fails to define the problem or 
problems that require a Federal solution in the form of a Federal river 
basin plan to be developed by a Federal river basin commission. Local 
watershed councils or groups should be allowed to define and resolve 
problems without forced Federal solutions as a condition of priority 
Federal financial assistance and expedited regulatory action. While 
enhanced Federal policy and budget coordination, as well as expedited 
regulatory reviews and decisions, are commendable objectives, the 
prospect for their attainment is dim. The proposal for Federally 
created and operated top-down river basin commissions is unworkable and 
unacceptable.
Conflicts with State Water Law and Institutions
    The Council has serious concerns with other recommendations in the 
report which either directly conflict with existing state water law and 
policy, or fail to provide for adequate partnerships between the state 
and Federal agencies on key policy issues. For example, while the 
report states an intention to ``respect'' state water law, the report 
also recommends changes in state management of ground water and 
allocation of conserved water which are contrary to current state laws.
    Recommendations relative to the review of authority and operations 
of existing dams and hydroelectric facilities, would promote Federal 
objectives without adequately addressing concomitant state interests. 
Other recommendations would condition distribution of Federal funds 
based solely on Federal policy considerations without adequate state 
and stakeholder input. Such undertakings will require effective 
partnerships between state and Federal agencies, as well as affected 
stakeholders.
Summary
    The Federal Government's preemption of state authority is not the 
way to address the complex issues associated with western water 
management. The report, if implemented, would move us in the wrong 
direction, adversely affecting states' abilities to efficiently address 
our water resource problems. The suggested Federal role would create 
more problems than it would resolve. The recommendations regarding 
state authority are placed in the context of the report's conclusions 
that would undermine the long-established congressional policy of 
deference to state water allocation law. The Western States Water 
Council strongly opposes this and similar recommendations in the 
report. More detailed comments on the report were provided by many of 
our member states.
    The Council invites reference to a published report prepared by it 
for the Commission entitled, ``Water in the West Today: A States' 
Perspective.'' This report was prepared by Council members and staff in 
response to a request from the Commission. The report relates to 
directives given to the Commission to: (1) review present and 
anticipated water resource problems affecting the nineteen western 
states; (2) review the problems of rural communities relating to water 
supply, potable water treatment, and wastewater treatment; (3) review 
the need and opportunities for additional storage or other arrangements 
to augment existing water supplies, including water conservation; (4) 
examine institutional arrangements to address problems of water 
allocation, water quality, planning, flood control, and other aspects 
of water development and use; and (5) review the respective roles of 
both the Federal Government and the states and examine Federal-state 
relations regarding various aspects of water allocation and use.
    The Council's report (published by the Commission) is based on 
responses elicited through a written request for information from the 
Council's member states, as well as several subsequent telephone 
conversations. Appendix I of the report contains the individual state 
responses, which exemplify both the commonality and diversity of 
challenges associated with the management of water resources in the 
West. Appendix II contains relevant policy positions of the Council, as 
well as the Western Governors' Association, with which the Council is 
formally affiliated.
                                 ______
                                 
                        Water in the West Today
EXECUTIVE SUMMARY
PREFACE
    The following represents an attempt to summarize some basic points 
drawn from the report. These observations and conclusions do not 
necessarily represent positions of the Western States Water Council, or 
any of its member states. Rather, they consist of the author's view of 
salient points drawn from state responses in order to provide a sense 
of westwide perspectives. They are listed in relation to questions 
posed to western states by the Western Water Policy Review Advisory 
Commission, through the auspices of the Council. <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ The original questions posed to the states are abbreviated in 
this report so as to clarify the state responses summarized herein and 
to consolidate those portions of the responses relating to the Federal 
role under section III.E.
---------------------------------------------------------------------------
SUMMARY OF STATE RESPONSES
1. Please identify and briefly describe significant present and 
        anticipated water problems in your state.
    In the arid West, providing adequate water supplies to meet future 
demands continues to be a priority. Despite the fact that the West 
represents the most urbanized region in the country, western states are 
especially cognizant of water needs of rural communities. Western 
states also remain concerned about the claims being exerted by Indian 
tribes to water resources and the potential of such claims to disrupt 
existing rights in non-Indian communities, underscoring the 
desirability of cooperative efforts with the tribes and their Federal 
trustee in addressing tribal needs.
    While virtually every western state identifies as an area of 
concern the need for additional supplies to meet growing consumptive 
use demands, they also recognize the need for existing water 
infrastructure rehabilitation. Further, many of them also recognize as 
a significant challenge the need to meet expanding environmental 
demands to sustain instream values generally, for maintaining and 
enhancing water quality, and for endangered species specifically.
    The West is often subject to wide swings in water supply. Thus, 
virtually an identical number of states identify drought planning and 
response as a priority problem, as do those who similarly flag flood 
planning and response. Overlaying many of the above challenges are 
legal and institutional conflicts facing western states, involving 
Federal/state relationships, conflicts between states, and disputes 
among water users, among others.
2. Identify and briefly discuss problems of rural communities in your 
        state relating to water supply, potable water treatment, and 
        wastewater treatment. Please briefly describe any programs in 
        your state to provide assistance to rural communities relating 
        to water supply, potable water treatment, and/or wastewater 
        treatment.
    Inadequate supplies of water for rural communities represent a 
primary concern in the West, particularly in times of drought. The need 
to augment water supplies for rural communities is magnified by the 
requirements of the Federal Clean Water and Safe Drinking Water Acts. 
There is an increased need for funding to achieve compliance with the 
requirements of these laws and to address other problems of aging 
public water systems. Several states are also concerned about the 
adequacy of training for operators of water and wastewater treatment 
facilities.
    Just as the problems confronting western states regarding rural 
communities are similar, western states have much in common regarding 
programs to address those problems. They continue to provide financial 
assistance for small water supply systems in the form of various loan 
and grant programs. Western states also have programs to provide 
assistance to rural communities facing environmental compliance 
problems. In every state, direct financial assistance with the 
development of drinking water and wastewater treatment systems comes 
through state-administered programs under the Federal Safe Drinking 
Water Act and the Clean Water Act. <SUP>2</SUP> Other state-
administered programs augment these resources. Programs to provide 
technical assistance to rural communities relating to the operation and 
management of water and wastewater treatment facilities are also 
common. Notwithstanding these programs, there is a need for Federal 
support to relieve the financial stress imposed on these communities by 
Federal laws and regulations.
---------------------------------------------------------------------------
    \2\ See related discussion on pp. 38 - 41.
---------------------------------------------------------------------------
3. Describe the need and opportunities for additional storage or other 
        arrangements to augment existing supplies including, but not 
        limited to, conservation.
    To meet increasing demands, several states are considering 
additional surface reservoirs, which, for the most part, will be 
smaller in scale than the large projects of the past, more innovative, 
environmentally sensitive, and financed primarily from state and local 
resources. Reallocation from existing uses to other uses will likely 
accelerate, chiefly from agricultural uses to other uses, primarily 
municipal. While states will often facilitate such transfers to meet 
specific water supply and environmental challenges, in some cases they 
may restrain market transfers, not only to protect third parties, but 
also the public interest in general.
    While recognizing the limits of water conservation in providing 
``new'' water and additional caveats relating to the site-specific 
impacts of water conservation measures, states will carefully consider 
opportunities to ``stretch'' existing supplies of water through water 
conservation, reuse, and reservoir reoperation, prior to the 
development of new storage facilities. States will further explore 
opportunities to cost-effectively manage groundwater recharge, 
recognizing it as a potentially significant storage alternative, and 
some states will further pursue the potential of desalinization and 
weather modification to augment existing supplies.
4. Please provide illustrations of significant innovations in water 
        management, water use, water law, or other areas related to 
        water in your state at the state, regional, or local level.
    As the emphasis on the importance of water conservation increases, 
states are developing and adopting a number of programs to encourage 
such measures as low water-use landscaping, and water rates that 
encourage conservation in urban areas, and development of conservation 
plans and incentives and leak detection programs in rural/agricultural 
settings. The reuse of wastewater effluent is also increasing. Many 
communities are currently reusing effluent for landscape and 
agricultural irrigation.
    Desalting research, including construction of pilot facilities, is 
exploring the potential for cost effective treatment. Weather 
modification research is also progressing in various states. To 
facilitate a reallocation of existing uses to augment supplies in areas 
of relative scarcity, some states have established water banks, while 
others have adopted measures to streamline the transfer process.
    Several western states have made innovations in their laws and 
institutions in order to augment and protect instream flows and to 
incorporate consideration of the public interest in their water right 
application and transfer processes. States are also endeavoring to 
incorporate innovations in their water quality programs, particularly 
regarding non-point source pollution.
    States have adopted various measures to deal with the problem of 
ground water depletion. States have also strengthened their capacity to 
deal with floods and drought. Innovations to improve information on 
water availability and use are common.
    Several western states have recognized and moved to enhance the 
potential value of local watershed coordination initiatives. As 
conflicts over water use intensify in an era of both increasing and 
changing demands, states are also addressing the need to deal more 
effectively with these disputes.
5. Please discuss the manner in which Federal water-related programs 
        and activities affect your state and water uses within your 
        state, either positively or negatively. Provide examples where 
        possible. Also describe state laws and programs that are 
        effectively facilitating the accomplishment of Federal 
        statutory purposes.
    For a variety of reasons, states are increasing their emphasis on 
maintaining and enhancing the environment. These reasons include, but 
are not limited to, Federal mandates such as the Endangered Species Act 
and the Clean Water Act. Given the diminishing Federal resources 
available to carry out the requirements of these and other acts, and 
the concurrent increase in the state burden for environmental 
protection, states urge that increased flexibility be given regarding 
their implementation, so that states and others can tailor programs and 
prioritize resources to meet real needs. Streamlining Federal permit 
processes is also important. The Federal Government should encourage 
innovations, such as those described in the state responses, which 
frequently involve market incentives and non-regulatory tools, as they 
have often been found to work more effectively than top-down 
regulation.
    Locally-driven watershed efforts have the potential to solve 
complex water resource issues. The Federal Government has recognized 
and acted on this potential, but must deal with the emerging 
possibility for conflicting and counterproductive efforts among 
agencies involved in such initiatives.
    There is a significant need for the Federal Government to maintain 
and rehabilitate its existing water storage infrastructure, and to work 
with states and others in providing reliable water data. Further, the 
Federal Government continues to have an important role with regard to 
disaster response and other mitigation associated with droughts and 
floods.
                                 ______
                                 
             Resolution of the Western States Water Council
WHEREAS, water is the lifeblood of each of the arid Western States, the 
        allocation of which determines the future of each Western 
        State's economic, environmental, social and cultural fortunes; 
        and
WHEREAS, each Western State has developed comprehensive systems for the 
        appropriation, use and distribution of water tailored to its 
        unique physiographic, hydrologic and climatic conditions found 
        within that state;
WHEREAS, the United States does not have a water management system that 
        is equivalent to those of the Western States for the 
        appropriation, use or distribution of water; and
WHEREAS, Congress has consistently recognized the primacy of state 
        water law because of the need for comprehensive water 
        management systems tailored to the unique needs and 
        characteristics of the individual states; and
WHEREAS, Congress enacted the McCarran Amendment, 43 U.S.C. Sec. 666, 
        to allow the joinder of the United States in state general 
        stream adjudications, and Congress intended the United States 
        to be subject to the same procedures as all other water right 
        claimants joined in state general stream adjudications; and
WHEREAS, many of the Western States are conducting general stream 
        adjudications for the purpose of quantifying all water right 
        claims in accordance with the McCarran Amendment; and
WHEREAS, the United States is often the largest claimant of water 
        rights in these general stream adjudications, and the 
        adjudication of Federal water right claims requires a large 
        commitment of time, effort and resources by the state courts 
        and by state agencies; and
WHEREAS, the adjudication of water rights claims is absolutely 
        essential for the orderly allocation of water in all the 
        Western States where state law is based on the prior 
        appropriation doctrine; and
WHEREAS, many of the Western States' general stream adjudication 
        procedures require claimants to pay a fee to offset the states' 
        expenses arising from state general stream adjudications; and
WHEREAS, citing to United States v. Idaho the United states claims 
        immunity from the payment of adjudication filing fees required 
        of all other claimants to offset the state's judicial and 
        administrative expenses in conducting general stream 
        adjudications; and
WHEREAS, for the United States to be immune from sharing in the 
        expenses of these proceedings constitutes an unfunded Federal 
        mandate to the states; and
WHEREAS, the United States contends that it cannot be joined in state 
        administrative or judicial proceedings with respect to water 
        rights it has acquired under state law other than pursuant to 
        the McCarran Amendment, 43 U.S.C. Sec. 666; and
WHEREAS, it is inefficient and wasteful to require that a separate 
        lawsuit be commenced for the sole purpose of regulating water 
        rights acquired by the United States under state law; and
WHEREAS, the United States claims it is also immune from paying fees to 
        states that are required of all other water users for the 
        appropriation, use or distribution of water; and
WHEREAS, equity and fairness dictate that Federal agencies who 
        voluntarily seek to appropriate water pursuant to state law, or 
        who acquire water rights based on state law, should be required 
        to comply with state law, including the payment of fees, to the 
        same extent as all other persons.
NOW, THEREFORE, BE IT RESOLVED that the Western States Water Council 
        supports passage of legislation that at a minimum provides for 
        the following:
    1. LRequires the Federal Government to participate in all state 
administrative and judicial proceedings with respect to water rights it 
acquires to the same extent as all other persons.
    2. LRequires the Federal Government to pay filing fees (not Native 
American tribes) as well as comply with all other state substantive and 
procedural water right adjudication laws to the same extent as all 
other persons.
    3. LRequires the Federal Government to pay applicable fees as well 
as comply with all other state substantive and procedural laws for the 
appropriation, use and distribution of water rights to the same extent 
as all other persons.
    4. LProvides for state administration of all water rights.
BE IT FURTHER RESOLVED that the Western States Water Council also urges 
        Congress to appropriate moneys for payment of unpaid fees to 
        states that have incurred expenses as a result of processing 
        Federal claims or Federal objections to private claims in state 
        general stream adjudications.
BE IT FURTHER RESOLVED that the Western States Water Council shall send 
        a copy of this resolution to the congressional delegations 
        representing the states and territories who are members of the 
        Western States Water Council, to President George W. Bush, and 
        to the President Pro-Tem of the United States Senate and the 
        Speaker of the United States House of Representatives.
                                 ______
                                 
              Position of the Western States Water Council
WHEREAS, the Western States Water Council is a policy advisory body 
        representing eighteen states, and has long been involved in 
        western water conservation, development, protection and 
        management issues, and our member states and political 
        subdivisions have long been partners in cooperative Federal 
        water and climate data collection and analysis program; and
WHEREAS, in the West, water is a critical, vital resource (much of 
        which originates from mountain snows) and sound decision making 
        demands accurate and timely data on precipitation, temperature, 
        soil moisture, snow depth, snow water content, streamflow, and 
        similar information; and
WHEREAS, the demands for water and related climate data continue to 
        increase along with our population and this information is used 
        by Federal, state, tribal and local government agencies and 
        private entities and individuals to forecast flooding and 
        drought, and project future water supplies for agricultural and 
        municipal and industrial uses, hydropower production, 
        recreation, and environmental purposes, such as fish and 
        wildlife management, including water for endangered species 
        needs; and
WHEREAS, without timely and accurate information, human life, health, 
        welfare, property and environmental and natural resources are 
        at considerably greater risk of loss; and
WHEREAS, critical, vital information is gathered and disseminated 
        through the Snow Survey and Water Supply Forecasting Program, 
        administered by the National Water and Climate Center (NWCC) in 
        Portland, Oregon and funded through USDA's Natural Resources 
        Conservation Service (NRCS), while equally essential data on 
        streamflows is gathered and disseminated through the U.S. 
        Geological Survey's Cooperative Streamgaging Program and 
        National Streamflow Information Program, which is funded 
        through the Department of Interior; and
WHEREAS, over a number of years, Federal appropriations have not kept 
        up with increasing program costs and/or matching non-Federal 
        contributions, and this erosion in funding has led or will lead 
        to the discontinuance, disrepair and obsolescence of a 
        significant number of manual snow courses, automated SNOTEL 
        (SNOwTELemetry) sites, and streamgages; and
WHEREAS, state-of-art technology has been developed to provide real or 
        near real-time data with the potential to vastly improve the 
        water-related information available to decision makers in 
        natural resources and emergency management, and thus better 
        protect the public safety, welfare and the environment; and
WHEREAS, there is a serious need for adequate and consistent Federal 
        funding to maintain, restore, modernize, and provide for 
        targeted expansion of NWCC's SNOTEL System and Soil and Climate 
        Analysis Network (SCAN), and USGS's Cooperative Streamgaging 
        Program and National Streamflow Information Program, with a 
        primary focus on coordinated data collection and dissemination.
NOW THEREFORE BE IT RESOLVED, that the Western States Water Council 
        urge the Administration and the Congress to give a high 
        priority to the allocation and appropriation of sufficient 
        funds for these critical, vital programs which benefit so many, 
        yet have been or are being allowed to erode to the point that 
        it threatens the quantity and quality of basic data provided to 
        a myriad, growing and diffuse number of decision makers and 
        stakeholders, with significantly adverse consequences.
                                 ______
                                 

                      Western States Water Council

                             April 2, 2002

The Honorable Joe Skeen, Chairman
Subcommittee on Interior and Related Agencies
Washington, DC 20515


Dear Mr. Chairman:

    On behalf of the Western States Water Council, representing the 
governors of eighteen states, I am writing to request your support for 
placing a high priority on funding for U.S. Geological Survey (USGS) 
streamgaging programs. The Administration's reduced request for the 
National Streamgaging Information Program (NSIP) would eliminate 
Federal funding for some 130 streamgages and likely result in the loss 
of important data during a drought year. We would urge the Committee to 
appropriate $14.3 million for NSIP, the same as in Fiscal Year 2002.
    Under the Cooperative Water Program, a longstanding state/Federal 
streamgaging partnership, our member states have worked closely with 
the USGS. The Administration has asked for $64,339,000 for this 
program, a $21,000 increase, but it is not enough to cover inflation 
and other cost increases. Moreover, this was originally a 50%-50% fund-
matching program, but cooperator contributions (primarily state and 
local government spending) have increased faster than available USGS 
monies. In 2001, cooperators contributed $123.2 million or two-thirds 
of the $185.9 million program cost. We would ask the Committee to add 
$2 million to the President's request, for a total of $66.34 million, 
to help better balance program funding.
    Given the dire budget conditions in many states and the slow 
erosion in the Cooperative Program spending, without these increases, 
states may be forced to drop partnered gages, adding to the loss of the 
NSIP streamgages. The result would be a significant loss of 
increasingly vital basic water data that is critical to myriad 
government agencies at all levels and other private entities that must 
base decisions related to drought, water supply, flood warning, water 
quality, energy production, recreation, fish and wildlife habitat 
management and environmental protection on the best science available. 
We believe that data collection and dissemination is the most important 
element of the USGS water resources program. The highest priority 
should be placed on maintaining and strengthening the existing USGS 
streamgaging network, particularly the cooperative partnership with the 
states.

                               Sincerely,

                      Michael J. Brophy, Chairman

                      Western States Water Council

                                 ______
                                 
    [A statement submitted for the record on H.R. 4638 by John 
Steele, President, Oglala Sioux Tribe, Pine Ridge Indian 
Reservation, follows:]

  Statement of John Steele, President, Oglala Sioux Tribe, Pine Ridge 
             Indian Reservation, South Dakota, on H.R. 4638

    This testimony has been developed conjunctively and is offered on 
behalf of the Oglala Sioux Tribe, West River/Lyman-Jones, Inc., the 
Rosebud Sioux Tribe and the Lower Brule Sioux Tribe, the four 
beneficiaries and sponsors of the Mni Wiconi Rural Water Supply System 
in southwestern South Dakota. H.R. 4638, a re-authorization of the Mni 
Wiconi Project, will increase project funding by $58.8 million (October 
1997 dollars) and extend the completion of the project to 2008. The 
sponsors, individually and collectively, support H.R. 4638 and seek 
support from the Subcommittee.
Background
    The Mni Wiconi Project Act of 1988 (Public Law 100-516) authorized 
and directed the Secretary of the Interior to construct the Mni Wiconi 
Rural Water Supply Project to provide a safe and adequate municipal, 
rural, and industrial water supply to both Indian and non-Indian 
residents of South Dakota. Initially, the Project included the Oglala 
Sioux Rural Water Supply System (OSRWSS), the West River Rural Water 
System, and the Lyman-Jones Rural Water System. In 1994, the West River 
and the Lyman-Jones Systems were merged into one system, known as the 
West River/Lyman-Jones Rural Water System. The Mni Wiconi Act 
Amendments of 1994 (Public Law 103-434, Title 8) added the Rosebud 
Sioux and the Lower Brule Sioux Rural Water Systems to serve the 
respective reservations, thereby increasing the number of Project 
``sponsors'' to four. The amendments also raised the authorized 
appropriation ceiling for the Project from $87.5 to $263.2 million, 
subject to cost indexing, and provided that the systems would generally 
be constructed in accordance with the Project's Final Engineering 
Report, dated May 1993.
    The overall Project includes a water treatment plant, 4,500 miles 
of pipeline, 60 booster pump stations, and 35 water storage reservoirs. 
The Project will ultimately serve more than 52,000 people, including 
more than 40,000 on the three Indian reservations.
Current Status of Construction and Funding
    The following is the average Federal funding need to complete the 
project in Fiscal Year 2008. Figure 1 shows the location of the project 
and the current status of construction.
[GRAPHIC] [TIFF OMITTED] 79751.001

[GRAPHIC] [TIFF OMITTED] 79751.002

    The Project has a total estimated cost (October 2000 dollars) of 
$411 million according to the most recent master plan. Federal funding 
requirements for the project are $391 million, including the $58.8 
million proposed by H.R. 4638. The total amount spent from Federal 
funds is $213.4 million, 54.56% of the total Federal requirement. Most 
non-Federal funds for the project have already been expended. The 
amount remaining in Federal funds to complete the project is $177.7 
million, which will require an average annual appropriation through 
Fiscal Year 2008 of $29.6 million (October 2001 dollars). If cost 
indexing at 3% is taken into account between Fiscal Year 2002 and 
Fiscal Year 2008, the average indexed funding requirement is $34.9 
million annually.
    The sponsors are extremely pleased to report to the Subcommittee 
that the OSRWSS water treatment plant on the Missouri River near Fort 
Pierre, South Dakota, is fully operational and will deliver treated 
water on a sustained and dependable basis during Fiscal Year 2002 and 
thereafter. By the end of the 2002 calendar year, large diameter OSRWSS 
core pipelines (24 inch) will have been constructed from the water 
treatment plant to Vivian and Murdo, a distance of over 100 miles. The 
completion of these critical segments of the core pipeline will permits 
the Lower
    Brule Sioux Tribe to interconnect at Vivian and allow the immediate 
delivery of water to large areas of West River/Lyman-Jones. Over a 
period of several years, Lower Brule will complete its core system into 
the Reservation. The Rosebud Sioux Tribe and other parts of West River/
Lyman-Jones will interconnect at Murdo, allowing over 50% of the design 
population have access to Missouri River water from the OSRWSS core 
pipelines at the 2002 level of completion.
    The project now has the most significant project components 
completed and can conclude the project in a timely manner given the 
amendment of the project ceiling as proposed by H.R. 4638 and adequate 
appropriations in fiscal years 2003 through 2008. The degree of poverty 
and need to improve the drinking water in the sponsors' areas are set 
forth in greater detail in the next section of this statement. The 
statistics underscore the importance of this project and the necessity 
for a timely completion.
    Attention is directed to the fact that the Pine Ridge Indian 
Reservation and the western portion of the West River/Lyman-Jones 
service areas are the furthest from the water treatment plant on the 
Missouri River. These areas will be served last, and it is crucial that 
the project is funded adequately and timely over the next six years to 
serve the remaining 50% of the project design population (Figure 1).
Unique Needs of This Project
    This project covers much of the area of western South Dakota that 
was formerly the Great Sioux Reservation established by the Treaty of 
1868. Since the separation of the Reservation in 1889 into smaller, 
more isolated reservations, including Pine Ridge, Rosebud and Lower 
Brule, tensions between the Indian population and the non-Indian 
settlers on former Great Sioux lands has been high with little easing 
by successive generations. The Mni Wiconi Project is perhaps the most 
significant opportunity in more than a century to bring the sharply 
diverse cultures of the two societies together for a common good. Much 
progress has been made due to the good faith and genuine efforts of 
both the Indian and non-Indian sponsors. The project is an historic 
basis for renewed hope, dignity and improvement in quality of life 
among the Indian people. It has been a basis for substantive 
improvement in relationships.
    The project beneficiaries, particularly the three Indian 
Reservations, have the lowest income levels in the Nation. The health 
risks to the Indian people from drinking unsafe water are compounded by 
reductions in health programs. It is respectfully submitted that the 
project is unique and that no other project in the Nation has greater 
human needs. Poverty in the Indian service areas is consistently deeper 
than elsewhere in the Nation. Health effects of water borne diseases 
are consistently more prevalent than elsewhere in the Nation, due in 
part to (1) lack of adequate water in the home and (2) poor water 
quality where water is available. Higher incidences of impetigo, 
gastroenteritis, shigellosis, scabies and hepatitis-A are well 
documented on the Indian reservations of the Mni Wiconi Project area 
although improvements have been noted since the initial delivery of 
good water beginning in 1994. At the beginning of the third millennium 
one cannot find a region in our Nation in which social and economic 
conditions are as deplorable. These circumstances are summarized in 
Table 1. Mni Wiconi builds the dignity of many, not only through 
improvement of drinking water, but also through direct employment and 
increased earnings during planning, construction, operation and 
maintenance and from economic enterprises supplied with project water. 
The Subcommittee is urged to consider the need for creating jobs and 
improving the quality of life on the Pine Ridge, Lower Brule and 
Rosebud Indian Reservations of the project area.
[GRAPHIC] [TIFF OMITTED] 79751.003

    Employment and earnings among the Indian people of the project area 
are expected to positively impact the high costs of health-care borne 
by the United States and the Tribes. OSRWSS data suggest clear 
relationships between income levels and Federal costs for heart 
disease, cancer and diabetes.
    It is believed that the Subcommittee will share the shock of the 
sponsors with respect to future health care costs associated with 
poverty and the extremely high mortality rates of Indian people in the 
Great Plains. OSRWSS has found that an extra $0.8 to $1.6 billion 
(present value of 50 years of future health-care) will be required for 
each 24,000 members of the Indian population in the Mni Wiconi Project 
(relative to the non-Indian population). This is not total costs of 
health care, it is the extra cost of health care. A task force to 
thoroughly study this matter with the objective of taking corrective 
action is needed.
    The Oglala Sioux Rural Water Supply System is a part of the 
solution to lower incidence of these diseases. It brings much needed 
employment, which, in turn, engages part of our unemployed and brings 
about some measurable improvement in the health of the Lakota Nation. 
It will help reduce Federal health-care costs and, most of all, the 
tragedy in the families affected. Support for the additional funds 
needed for completion of the project and acceleration of the Project in 
the Administration's budget will be invaluable.
    Financial support for the Indian membership has already been 
subjected to drastic cuts in funding programs through the Bureau of 
Indian Affairs. This project is a source of strong hope that helps 
offset the loss of employment and income in other programs and provide 
for an improvement in health and welfare. Welfare Reform legislation 
and other budget cuts nation-wide have created a crisis for tribal 
government by forcing tribal members back to the reservations simply to 
survive. Recent Census Bureau data indicate that the population of 
Shannon County (Pine Ridge Indian Reservation) increased over 24% 
between 1990 and 2000. The populations of the Rosebud and Lower Brule 
Indian Reservations have also continued to grow. Economic conditions 
have clearly resulted in accelerated population growth on the 
reservations. The Mni Wiconi Project Act declares that the United 
States will work with us under the circumstances:
        ...the United States has a trust responsibility to ensure that 
        adequate and safe water supplies are available to meet the 
        economic, environmental, water supply and public health needs 
        of the Pine Ridge, Rosebud and Lower Brule Indian 
        Reservations...
    Indian support for this project has not come easily because the 
historical experience of broken commitments to the Indian people by the 
Federal Government is difficult to overcome. The argument was that 
there is no reason to trust and that the Sioux Tribes are being used to 
build the non-Indian segments of the project: that the Indian segments 
will linger uncompleted. This argument has been overcome by better 
planning, an amended authorization and solid agreements and 
relationships among the parties. The Subcommittee is respectfully 
requested to take cognizance of the need to complete the project to 
maintain the faith of the Indian people.
    The Mni Wiconi sponsors have worked especially hard to implement 
cost controls and to minimize the increase in the authorization 
required to finish this valuable project. There has been every effort 
to comply with cost reduction measures, and the sponsors trust that 
others will find that actions and decisions have been genuine, 
comprehensive and effective.
Components of Additional Cost
    Before fully reviewing the components of the increase of $58.8 
million in the project ceiling, the sponsors are in complete agreement 
that the Bureau of Reclamation has worked with us in a thoroughly 
cooperative and effective manner throughout the project. In preparation 
of the cost estimates for H.R. 4638, the Bureau of Reclamation worked 
closely with the sponsors. Agreement was reached on the causes of the 
cost increases, the steps to be taken to control and limit future 
costs, and on reconfiguration of the OSRWSS core system. Table 2 
summarizes the factors requiring amendment of the project ceiling and 
the amounts of additional costs.
[GRAPHIC] [TIFF OMITTED] 79751.004

    Factors contributing to increases in cost include items not 
originally contemplated in the Final Engineering Report (FER) upon 
which the project costs were based. These include extension of the 
project completion date from 2003 to 2008 and the associated costs of 
administration. Operation and maintenance buildings were required that 
were not originally included in the project costs. Moreover, facilities 
were approved and constructed that were not part of the original plan 
formulation, but were subsequently determined necessary due to change 
in circumstances.
    Bid prices, particularly on the OSRWSS core and distribution system 
on the Pine Ridge Indian Reservation, were received at higher prices 
than contemplated in the FER. The Reservation is the most remote area 
in the project, the number of bids received was generally low (whether 
for the OSRWSS core or distribution system) and bid prices by 
contractors reflected a higher level of risk. Moreover, criteria used 
in common by all sponsors for estimating minor construction items, did 
not adequately reflect the requirements for the OSRWSS core (Table 2).
    OSRWSS and the other sponsors agreed to a reconfiguration of the 
OSRWSS core that resulted in an estimated savings of $5.5 million. 
Federal procurement processes were improved but have less impact on 
savings than the reconfiguration of the OSRWSS core. The total costs of 
$57.8 million in Table 2 were later adjusted to the $58.8 million in 
H.R. 4638.
    It is important to review of the project design criteria based on 
the 1990 Census of Population in the FER and the subsequent population 
count by the Bureau of Census for 2000. A factor in the cost of 
additional construction on the Pine Ridge Indian Reservation was an 
accelerated growth rate. Population on Pine Ridge has grown at an 
estimated annual rate of 2.18% as contrasted with the design rate of 
growth of 1.65%, an increase of 32% in the growth rate. By year 2020, 
little more than a decade after project completion, the design 
population on Pine Ridge will have reached 24,560 persons, 17% greater 
than the 21,000 persons projected in the FER by the same date. Stated 
differently, if current growth rates are sustained, the design 
capacities for Pine Ridge will be exceeded in years 2011 and 2012, 
respectively, 3 to 4 years after the scheduled completion of 
construction. The population of other service areas is growing but more 
in accord with original projections. The increase in population on Pine 
Ridge is believed to stem in large part from the availability of a new 
source of safe and adequate water as well as new opportunities for 
earnings and employment associated with the project.
    On each of the Indian Reservations in the project: Pine Ridge, 
Rosebud and Lower Brule, population estimates prepared by the Bureau of 
Indian Affairs argue for higher population than estimated by the Bureau 
of Census. Therefore, numbers of persons residing on the reservations 
may significantly exceed the numbers presented here, and the ability of 
the project to serve a future population may be more important than 
currently found.
    Reconfiguration, as agreed-upon by the sponsors and the Bureau of 
Reclamation, provides for a northern and southern pipeline in the 
OSRWSS core with pipe sizes meeting FER design requirements but with 
some excess capacity for the following reasons: (1) along the northern 
route, a pipe size between 10'' and 12'' is required between the water 
treatment plant and Philip Junction, and 12 inches would be provided; 
and (2) along the southern route, a pipeline between 20'' and 24'' 
would be required from the water treatment plant to Murdo, and 24'' 
would be provided. The Oglala Sioux Tribe needs a core transmission 
system with capability to deliver water through the southern and 
northern OSRWSS core as defined in the FER. Reconfiguration supports 
the projections of project population based on the 2000 Census.
Sicangu Mni Wiconi (Rosebud Indian Reservation)
    The Sicangu Mni Wiconi- Rosebud Sioux Rural Water System was not 
included in the original Mni Wiconi Act. Nine years ago an amendment 
was introduced to add Rosebud and Lower Brule to the Project and make 
other modifications to the legislation. That amendment, enacted as part 
of P.L. 103-434, and the amendment introduced this year illustrates the 
commitment of the project sponsors, the Congress and Administration to 
improving the quality of life for thousands of South Dakotans on three 
Indian Reservations and beyond.
    While much of the population of the project area still endures with 
some of the poorest water quality and lowest income levels in the 
Nation, Mni Wiconi has made a big difference to the lives of many. In 
1997 and 1998 the Rosebud Sioux Tribe worked with West River/Lyman-
Jones to bring high quality water to Horse Creek, Swift Bear and White 
River. Indians and non-Indians alike now have a reliable source of high 
quality water and schools in White River no longer have to close 
because of a lack of water. Other success stories abound in the area 
served by the Mni Wiconi.
    For Rosebud the present amendment is needed primarily to extend the 
sunset date and address facilities not contemplated in the FER. For 
other project sponsors the amendment is more critical. The amendment is 
needed to construct the reservation distribution system for Lower Brule 
and the north loop of OSRWSS. These facilities are needed to meet 
critical needs at Lower Brule and in the WR/LJ service areas. On behalf 
of the thousands of people who have yet to benefit from Mni Wiconi and 
who will not benefit without passage of this amendment, the Rosebud 
Sioux Tribe seeks your support. It is also urged that the Subcommittee 
bear in mind that legislation is seldom complete and perfect and one 
cannot rule out additional modifications that may be needed to meet our 
objective of providing equal benefits to all of the Sicangu Oyate in 
our Primary and Secondary Service Areas.
Lower Brule
    The Lower Brule Rural Water System has demonstrated its ability to 
manage and maintain their portion of the project with the tremendous 
amount of progress accomplished over the last few years. A state-of-
the-art microfiltration water treatment plant was constructed and 
placed into operation in December 1999. The completion of this plant 
has not only benefited the users of the LBRWS but also allowed the 
provision of high quality water to a significant number of users of the 
West River/Lyman Jones (WR/LJ) Rural Water System from Oacoma to 
Draper.
    The provision of water to WR/LJ RWS and its users has been a very 
rewarding experience. The cooperation and communication between the two 
systems, especially the operation and maintenance personnel, has been 
exceptional and has thus led to the successful delivery of high quality 
water to users on both systems. As a result, much of the apprehension 
that was felt prior to this supply of water has turned to praise.
    LBRWS has committed current funding for the construction of the 
last segment of LBRWS core pipeline between Kennebec and Reliance 
during the 2002 construction season. This will result in the core 
pipeline from Vivian to Reliance serving WR/LJ service areas along the 
pipeline and the cities of Vivian, Presho and Kennebec.
    The inclusion of Lower Brule in the Mni Wiconi Project occurred 
late in the process. Consequently, facilities and associated cost in 
the Final Engineering Report for Lower Brule were not nor could not be 
based on a thorough evaluation of the required facilities for Lower 
Brule's portion of the project. Upon initiation of the project, LBRWS 
quickly realized that the original estimated cost was severely 
underestimated. This need for additional funds was also confirmed in 
the Bureau of Reclamation's Cost Containment Report and the OIG Audit.
    The major items affecting the cost increase for Lower Brule are the 
pipe sizes and unit costs for the core pipeline; pipe sizes, quantities 
(The current total footage includes 510,200 feet for pasture taps. Much 
of this quantity may not have been in the FER cost estimate) and unit 
costs for the distribution system; there is a decrease in the estimated 
cost of pump stations; costs for reservoirs are substantially higher; 
and the costs the water treatment plant and administration building 
were not included in the FER.
    Another factor affecting Lower Brule's cost was the initial 
distribution of the appropriated funds. During the first years the 
project received funds, the funds were distributed based on a 
percentage of the sponsors' overall portion of the project. As such, 
the amount of money received by Lower Brule on a yearly basis 
($500,000-$700,000) was not sufficient to fund a worthwhile segment of 
the project. The funds needed to be accumulated over a period of years. 
This not only affected construction costs but also significantly 
increased the cost of administration as a percentage of the 
construction costs.
    Primarily, as a result of the underestimated cost in the FER, the 
LBRWS has received the extent of the funding designated for its portion 
of the project with the receipt of the 2001 funds. The LBRWS with the 
support of the other sponsors is proceeding with the optimism that the 
amendment will be approved in a time frame that will not impact the 
progress currently being made. To that extent, LBRWS has received 
$1,450,000 in Fiscal Year 2002 funds for the Kennebec to Reliance 
segment of core pipeline and is requesting $3,091,000 in Fiscal Year 
2003 funds for the Fort Hale, Medicine Butte North and Kennebec North - 
Medicine Creek distribution systems. This will be the initiation of the 
on-Reservation distribution system and thereby provide service to on-
Reservation users.
    If the amendment is not passed, the continued support of the other 
sponsors to designate funds for Lower Brule's portion cannot be 
expected. Therefore, it is crucial to the continued success of Lower 
Brule and the Mni Wiconi Project as a whole that the proposed amendment 
is passed.

                                   - 

</pre></body></html>
